Management and Oversight of
Interagency Acquisition Agreements
at the SEC




                           March 26, 2010
                           Report No. 460
                                                    UNITED STATES
                                 SECURITIES AND EXCHANGE COMMISSION
                                              WASHINGTON, D.C.    20J549

       O .... 'CIE 0 ..
'N. PIECTOR GEN ....... L




                                            MEMORANDUM
                                                    March 26. 2010

                To:            Sharon Sheehan, Office of Administrative Services (OAS)
                                 Associate Executive Director
                               Kenneth Johnson, Office of Financial Management (OFM), Acting
                                 Associate Executive Director
                               Jeffrey A. Risinger, Office of Human Resources (OHR), Associate
                                 Executive Director
                From:          H. David Kotz, Inspector General, Office of Inspector General (OI G;J!M

                Subject:       Management & Oversight of /AAs at the SEC, Report No. 460

                This memorandum transmits the U.S. Securities and Exchange Commission,
                OIG's final report detailing the results of our audit of the management and
                oversight of interagency acquisition agreements. This audit was conducted in
                accordance with our annual audit plan.

               Based on the written comments received to the draft report and our assessment
               ofthe comments, we revised the report accordingly. This report contains 15
               recommendations to which the identified offices concurred with all but one
               recommendation. OAS did not agree to recommendation 14. OFM and OHR did
               not provide comments to the final draft report. OAS' comments to this report are
               included in. the ·appendices..

               Within the next 45 days, please provide OIG with a written corrective action plan
               that is designed to address the recommendations. The corrective action plan
               should include information such as the responsible official/point of contact, time
               frames for completing the required actions, milestone dates identrtying how you
               will address the recommendations cited in this report, etc.




                 Management and Oversight of IAAs at the SEC                         March 26, 2010
                 Report No. 460
                                                         Page i
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our auditor.

Attachment



cc:    Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
       Diego Ruiz, Executive Director, Office of the Executive Director
       Wanda Armwood, Office of Administrative Services, Office of Acquisitions,
        Assistant Director (Acting)




Management and Oversight of lAAs at the SEC                        March 26,2010
Report No. 460
                                        Page ii
Management and Oversight of Interagency
Acquisition Agreements at the SEC

                                Executive Summary
Background. Federal government agencies use interagency acquisition
agreements (IAA) to obtain goods or services from or through other federal
agencies. An interagency acquisition is a procedure by which a federal agency
may obtain needed goods or services from, or through another federal agency,
and appropriated funds are obligated. The IAA agreement refers to the legal
instrument used for an interagency acquisition to exchange funds or property
between two federal agencies.

Goods and products that federal agencies obtain from other federal agencies
through IAAs “include cars, equipment, manufactured goods, office space,
supplies and other similar transactions where the providing agency
manufactures, distributes or owns the assets which are sold or leased to the
receiving agency.” 1 Services provided between agencies may “include
administrative support, financial accounting and grants, disbursement of funds,
consulting, telecommunication, childcare and other functions where the providing
agency incurs costs to provide services and bills the receiving agency for the
services.” 2 Agencies may place orders directly against another agency’s contract
(direct acquisition), or have another agency award and administer the contract on
its behalf (assisted acquisition). Interagency agreements for assisted
acquisitions may involve a requesting agency, a servicing agency, and the
contractor which provides the goods or services.
The authority for federal agencies to obtain goods and services from each other
is derived from various statutes. In the absence of specific statutory authority,
the Economy Act (31 U.S.C. §§ 1535, 1536) provides general authority for
interagency acquisitions. More specific authorities include: the Government
Employees Training Act (5 U.S.C. Chapter 41), which allows agencies to obtain
training and related assistance from other government agencies and the Office of
Personnel Management; the Clinger-Cohen Act of 1996, 3 which authorizes
information technology purchases, and 40 U.S.C. § 501, which relates to
services for executive agencies granted to the Administrator of General Services.



1
  Department of the Treasury, Financial Management Service, “Federal Intragovernmental Transactions
Accounting Policies Guide,” Section No. 21.8 – Goods/Products, August 8, 2007 at p. 120.
2
  Id. at Section 21.7 – Services Provided, p. 117.
3
  Also referred to as the “Information Technology Management Reform Act" (Pub. L. 104-106, Division E).

Management and Oversight of IAAs at the SEC                                             March 26, 2010
Report No. 460
                                                Page iii
The U.S. Securities and Exchange Commission’s (SEC or Commission) Office of
Administrative Services, Office of Acquisitions (OA), oversees contracts and
interagency acquisitions at the SEC. OA signs the funding documents to obligate
funding on interagency acquisitions and resolves contractual issues regarding
acquisitions.

The SEC enters into many types of IAAs, including ones for administrative
support services, employee payroll services, paralegal services, transit subsidies,
and financial statement audit and human capital management assistance
services.

Objectives. The objectives of the audit were to:

   •   Evaluate the SEC’s processes and procedures to approve, obtain,
       monitor, and close IAAs;

   •   Assess compliance with governing federal and Commission regulations
       and polices by determining whether the interagency acquisition process is
       conducted in accordance with those regulations and policies, and whether
       the products and services meet quality, cost, and timeliness requirements;
       and

   •   Determine whether opportunities exist for the SEC to save costs
       associated with IAAs.

Prior OIG Audit Report. In a prior Office of Inspector General (OIG) audit on
interagency agreements (Report No. 228, February 1, 1996), the OIG audited 11
selected Commission interagency agreements and made 4 recommendations to
the Office of Administrative and Personnel Management (OAPM, now the Office
of Administrative Services) to improve controls. The recommendations were to:

   (a) Obtain proper documentation to support obligations of funds for the Health
       Unit and Employee Assistance Program;

   (b) Remind Contracting Officer Technical Representatives that they should
       notify the Procurement and the Contracts Branch upon satisfactory
       completion of small purchases;

   (c) Distribute guidance to ensure that purchases under the Economy Act were
       properly closed out; and

   (d) Use 18 U.S.C. § 4124, Purchase of prison-made products by federal
       departments, as authority for contracting with Federal Prison Industries.


Management and Oversight of IAAs at the SEC                          March 26, 2010
Report No. 460
                                        Page iv
OAPM concurred with all four recommendations, issued additional guidance, and
the recommendations were closed. However, we found that some of the areas
previously identified in this audit still require improvement, particularly those
relating to closeouts of Economy Act purchases.

Results. Our audit found that OA can improve its processes and procedures
regarding IAAs in a variety of ways. Initially, we found that OA is unable even to
identify the universe of the SEC’s IAAs, and the incomplete list of IAAs that was
provided to us contained numerous errors. We found that OA currently lacks a
centralized method that accurately tracks all the SEC’s IAAs, although they are
implementing an automated procurement tracking system. We also found that
IAAs are not always clearly identified, thus hampering OA’s ability to track them
appropriately.
In addition, the audit found that OA lacks written internal policies and procedures
for administering and overseeing IAAs. For example, OA has no SEC-specific
written policies and procedures regarding:
    •    Providing a specific, definite and clear description of products or services;
    •    Ensuring that statements of work for assisted interagency acquisitions
         meet the applicable requirements;
    •    Ensuring the reasonableness of interagency acquisition costs;
    •    Including the appropriate information in interagency acquisition files;
    •    Recording and maintaining complete information on interagency
         acquisitions; and
    •    Closing expired interagency acquisitions.

Further, OA has no written policies and procedures to implement the applicable
provisions of the Federal Acquisition Regulation (FAR), the U.S. Department of
Treasury Financial Manual (TFM) Bulletin No. 2007-03, 4 or the Office of
Management and Budget’s Office of Federal Procurement Policy (OFPP)
guidance on interagency acquisitions. Also, OA’s IAAs do not undergo legal
review and OA has not formulated policies regarding SEC oversight of IAAs. We
also found that OA has not performed risk assessments of its interagency
acquisition function.

In scrutinizing the 133 SEC IAAs identified by OA, we found 23 IAAs, totaling
approximately $6.9 million, for which the period of performance had expired, yet
the IAAs were not closed out and the funds that remained on the IAAs were not
deobligated. We found that $5.3 million of the $6.9 million in unobligated funds
was attributed to a single IAA with General Services Administration (GSA) for
which the period of performance ended on September 30, 2008. In this particular

4
 We note that the TFM Bulletin is not within the exclusive purview of OA but, after consulting with OA, it is
our view that OA and OFM should work together to implement this Bulletin.

Management and Oversight of IAAs at the SEC                                                  March 26, 2010
Report No. 460
                                                   Page v
instance, effective monitoring on the part of OA for this single IAA would have
resulted in the $5.3 million being deobligated and returned to the Commission for
use to support the SEC’s programs, operations and mission.

We also found that OA lacked critical information to review IAA cost estimates.
Specifically, we found in connection with an August 2008 IAA for administrative
support services that the OA contracting officer was not able to explain why the
SEC was paying a unit cost that was significantly higher than the estimated
employee hourly rate and fringe rate. When we analyzed the costs associated
with a judgmental sample of task orders, we found these costs contained a
differential comprised of the vendor’s price to the government (including
overhead, general and administrative expenses, and profit on direct labor
cost/fringe benefits) of $281,000, representing 27 percent of the total cost of the
corresponding task orders. We then compared this percentage to the fees
associated with other SEC IAAs, and found it to be high. When we judgmentally
selected 15 of 269 small business contractors listed on the GSA schedules that
provided administrative support to agencies, we found that 9 of 15 contractors in
our review listed lower rates than the entity the SEC chose in at least one labor
category. We also found in connection with an IAA for payroll services that OA
failed to provide necessary input to ensure that the proposed contract prices
were fair and reasonable.

Finally, we found that IAA documentation often lacked information required by
the FAR, the TFM bulletin (Issued in 2007), and OFPP’s guidance (issued in
2008), and the Office of Human Resources’ Statement of Work for a large IAA
did not conform to the Office of Personnel Management’s guidance for the
underlying program.

Summary of Recommendations. This report consists of 15 recommendations
that are intended to enhance OA’s controls regarding oversight of IAAs and
improve its procedures, compliance with applicable requirements, and identifies
cost saving opportunities.
First, we recommend that OA identify its universe of open interagency
acquisitions and the corresponding amounts obligated and expended on each
interagency acquisition. Further, OA should maintain its interagency acquisition
data in a centralized automated system to ensure appropriate access to and
reliability of data, and to provide report generation capabilities.

We also recommend that OA develop internal SEC-specific written policies and
procedures to guide it in administering interagency acquisitions, and ensure that
these policies and procedures include guidance on ensuring the adequacy of
statements of work, ensuring the reasonableness of costs, maintaining adequate
files and closing expired IAAs.

Management and Oversight of IAAs at the SEC                           March 26, 2010
Report No. 460
                                        Page vi
Specifically, we recommend that OA take immediate action to close the IAAs we
identified for which the performance period has expired and deobligate the
corresponding $6.9 million in unused funds.

We are also recommending that OA develop and implement procedures to
review interagency acquisition cost estimates to ensure the estimates are
reasonable, and assess an existing IAA for administrative support services to
determine if the costs incurred are reasonable.

Finally, we recommend that OA provide additional training to its contracting staff
regarding interagency acquisitions. This training should include ensuring that
statements of work meet the applicable guidance and requirements.




Management and Oversight of IAAs at the SEC                           March 26, 2010
Report No. 460
                                       Page vii
TABLE OF CONTENTS

Executive Summary ............................................................................................. iii

Table of Contents................................................................................................viii

Background and Objectives
 Background .......................................................................................................1
 Objectives .........................................................................................................4

Findings and Recommendations
  Finding 1: OA Is Unable to Identify the Universe of the SEC’s Interagency
  Agreements .......................................................................................................5
    Recommendation 1........................................................................................7
    Recommendation 2........................................................................................7
    Recommendation 3........................................................................................7

   Finding 2: OA Lacks Written Internal Policies and Procedures for Interagency
   Acquisitions .......................................................................................................8
     Recommendation 4......................................................................................12
     Recommendation 5......................................................................................13
     Recommendation 6......................................................................................13

   Finding 3: OA Maintained Funds on IAAs for Which the Period of Performance
   Ended..............................................................................................................14
     Recommendation 7......................................................................................16
     Recommendation 8......................................................................................16
     Recommendation 9......................................................................................16

   Finding 4: IAA Documentation Lacked Information Required by the FAR and
   Treasury Guidance..........................................................................................17
     Recommendation 10....................................................................................21

   Finding 5: OA Lacked Adequate Information to Review IAA Cost Estimates .21
     Recommendation 11....................................................................................25
     Recommendation 12....................................................................................25
     Recommendation 13....................................................................................26

   Finding 6: OHR’s Statement of Work for its Human Resources Management
   Assistance IAA Did Not Conform to OPM’s TMA Program Guidance .............26
     Recommendation 14....................................................................................32
     Recommendation 15....................................................................................32

Management and Oversight of IAAs at the SEC                                                         March 26, 2010
Report No. 460
                                                     Page viii
  Appendices
   Appendix I: Acronyms.................................................................................33
   Appendix II: Scope and Methodology .........................................................34
   Appendix III: Criteria ....................................................................................37
   Appendix IV: List of Recommendations .......................................................39
   Appendix V: Management Comments ........................................................43
   Appendix VI: OIG Response to Management’s Comments .........................46
   Appendix VII: Table 3: Universe of IAAs Provided by OAS.........................47
   Appendix VIII: Table 4: Duplicates, Amendments & Errors.........................53
   Appendix IX: Table 5: Expired IAAs w/Outstanding Funding ......................55
   Appendix X: Table 6. Schedule of Cost Savings ........................................57

Tables
    Table 1: Intragovernmental Business Rules Procurement Requirements .19
    Table 2: OPM/TMA Program Interagency Agreement Guidance Steps .....28




Management and Oversight of IAAs at the SEC                                                  March 26, 2010
Report No. 460
                                                  Page ix
                    Background and Objectives

Background
Purpose of Interagency Acquisitions. Over the years, the use of interagency
acquisitions by federal agencies has grown considerably. This growth has
occurred as agencies have taken advantage of contracts and acquisition services
offered by other federal agencies. The use of interagency acquisitions
agreements (IAA) allows an agency to obtain goods or services by using another
agency’s contract, and/or by having another agency provide acquisition
assistance. 5 Federal agencies use interagency agreements to save time and
the administrative effort that can be associated with soliciting and awarding a
new contract for needed goods or services.

An IAA typically is a written agreement between federal agencies for goods or
services, on a reimbursable basis. IAAs are developed when an agency
(requesting agency) uses the contracts and/or services of another agency
(servicing agency) to obtain good or services. The requesting agency places the
order for goods and services. The servicing agency provides acquisition support,
administers the contract for the requesting agency’s direct use, or does a
combination of these things. Both the requesting and servicing agencies can
benefit from IAAs. A requesting agency can benefit from the servicing agency’s
expertise and capabilities and the efficiencies and economies from leveraging
resources and requirements. 6 A servicing agency can benefit from improved
pricing and terms and conditions that come from negotiating other agencies’
needs consolidated with their own needs. 7 A requesting agency should choose a
servicing agency that provides the necessary assistance by giving consideration
to the servicing agency’s authority, experience, and expertise; ability to comply
with the requesting agency’s laws and policies; customer satisfaction with the
servicing agency’s past performance; and reasonableness of the servicing
agency’s fees. 8 With regard to assisted acquisitions (see below), requesting and
servicing agencies should develop clear and complete agreements that establish
the general terms and conditions to govern the relationship and provide
information required to demonstrate a bona fide need to authorize the transfer
and obligation of funds. 9

5
  Executive Office of the President, Office of Management and Budget, Office of Federal Procurement
Policy, “Interagency Acquisitions,” June 2008 at p.2.
6
  Id.
7
  Id.
8
  Id. at pgs. 6-7.
9
  Id. at p.6.

Management and Oversight of IAAs at the SEC                                             March 26, 2010
Report No. 460
                                                Page 1
Agencies generally use one of two types of IAAs: (1) Direct acquisitions or
(2) Assisted acquisitions. In direct acquisitions, the requesting agency places an
order against the servicing agency’s existing contract. In an assisted acquisition,
the servicing agency and the requesting agency enter into an IAA, whereby the
servicing agency performs acquisition activities, such as awarding a contract. 10


Authority and Processes for Interagency
Acquisitions
Economy Act vs. Non-Economy Act Agreements. IAAs are issued either
under the general authority of the Economy Act, 31 U.S.C. §§1535, 1536, or in
accordance with statutory authority other than the Economy Act. A major
difference between Economy Act and non-Economy Act IAAs pertains to the
deobligation of funds. The Economy Act allows “[t]he head of an agency or a
major organizational unit within an agency to place an order with a major
organizational unit within the same agency or another agency for goods or
services --

     (1) Amounts are available;
     (2) The head of the ordering agency or unit decides the order is in the best
     interest of the United States Government;
     (3) The agency or unit to fill the order is able to provide or get by contract the
     ordered goods and services; and
     (4) The head of the agency decides ordered goods or services ordered
     cannot be provided by contract as conveniently or cheaply by a commercial
     enterprise.” 11

An Economy Act transaction should be evidenced by a written agreement, which
is important to “establish the scope of the undertaking and the rights and
obligations of the parties.” 12 The Government Accountability Office (GAO)
recommends that the written agreement specify at least the following items:

         •   Legal authority for the agreement;
         •   Terms and conditions of performance;
         •   The cost or performance, including appropriate ceilings when cost is
             based on estimates;
         •   Mode of payment (advance or reimbursement);
10
    Id. at p. 2.
11
     31 U.S.C. § 1535(a).
12
    U.S. Government Accountability Office, Principles of Federal Appropriations Law, Third Edition, Volume
III, GAO-08-978SP, September 2008 at pgs. 12-30. The recording statute, 31 U.S.C. § 1501 requires
documentary evidence for government obligations.

Management and Oversight of IAAs at the SEC                                                March 26, 2010
Report No. 460
                                                 Page 2
         •   Any applicable special requirements or procedures for assuring
             compliance; and
         •   Approvals by authorized officials. 13

IAAs based on statutory authority other than the Economy Act are still subject to
the recording of the obligation requirement of 31 U.S.C. § 1501(a) (1). 14

A major difference between Economy Act and non-Economy Act IAAs pertains to
the deobligation of funds. For Economy Act acquisitions, the amount of funds
obligated “is deobligated to the extent that the agency or unit filling the order has
not incurred obligations, before the end of the period of availability of the
appropriation in -- (1) providing goods or services; or (2) making an authorized
contract with another person to provide the requested goods or services.” 15 The
deobligation requirement of 31 U.S.C. § 1535(d), however, “does not apply to
obligations against no-year appropriations.” 16 The deobligation requirement of
31 U.S.C. § 1535(d) also does not apply to interagency agreements based on
statutory authority other than the Economy Act. 17

Office of Acquisitions. The U.S. Securities and Exchange Commission’s (SEC
or Commission) Office of Administrative Services (OAS), Office of Acquisitions
(OA) oversees the Commission’s contracts and interagency acquisitions. OA
includes four branches, consisting of a newly-established Policy, Oversight and
Acquisitions Program branch and three Operations Contract branches. One
operations contract branch oversees acquisitions for the Office of Information
Technology. The second branch has oversight for acquisitions by OAS, the
Office of Human Resources (OHR), and the regional offices. The third branch
oversees acquisitions for the Division of Enforcement, Office of the Secretary,
and other headquarters offices and divisions, and regional office’s enforcement
actions. The responsibilities of staff in OA’s Operations Contract branches
includes signing IAA funding documents to obligate funding, resolving issues
regarding acquisitions, and ensuring agreements are properly closed out after
the period of performance expires.

IAA Process for SEC Offices and Divisions. SEC’s offices and divisions
initiate an IAA by contacting another government agency directly to discuss
needed requirements, terms and conditions, or by submitting a requirement to
OA. If an SEC office or division contacts another government agency directly,

13
   Id. at pgs. 12-31.
14
   U.S. Government Accountability Office, Principles of Federal Appropriations Law, Third Edition, Volume II,
GAO-06-382SP, February 2006 at pgs. 7-30.
15
   31 U.S.C. § 1535(d).
16
   U.S. Government Accountability Office, Principles of Federal Appropriations Law, Third Edition, Volume II,
GAO-06-382SP, February 2006 at pgs. 7-30.
17
    Id.

Management and Oversight of IAAs at the SEC                                                March 26, 2010
Report No. 460
                                                 Page 3
the SEC office or division must provide OA with the purchase requisition for
funding, the unsigned IAA agreement form, the statement of work (SOW), and
the terms and conditions of the agreement. If OA initiates the IAA, the office or
division must send the SOW to OA, and OA contacts the other government
agency to establish the terms and conditions of the IAA. If OA and the servicing
agency approve the agreement, representatives of both agencies sign the IAA
form. The servicing agency then establishes payments for the IAA through the
Interagency Payment and Collection (IPAC) system. OA uses the signed IAA
agreement order to obligate funding for the goods or services by inputting
required information into Momentum, the Commission’s financial system.

Intra-Governmental Payments and Collection System. The Commission uses
the IPAC system to pay its IAA invoices. The IPAC system uses financial
information provided by the SEC to set up automatic billing and charges on a
periodic basis, as agreed to in the terms and conditions of the IAA. The servicing
agency draws down on the SEC’s funds and then sends a notice to the Office of
Financial Management (OFM). OFM coordinates with the servicing agency, as
well as with the SEC program office or division that receives the goods and
services to verify the amount collected through IPAC. If the invoiced amount
does not represent what was actually received, OFM processes an adjustment in
IPAC to “charge back” the erroneous amount to the Commission’s account. This
ensures the SEC only pays for the goods and services that are received.

Objectives
This audit was conducted as part of our annual audit plan. The objectives were
to:

   •   Evaluate the Commission’s processes and procedures to approve, obtain,
       monitor, and close IAAs;

   •   Assess compliance with governing federal and Commission regulations
       and polices by determining whether the process is conducted in
       accordance with those regulations and policies, and whether the products
       and services meet quality, cost, and timeliness requirements; and

   •   Determine whether opportunities exist for the SEC to save costs
       associated with IAAs.




Management and Oversight of IAAs at the SEC                          March 26, 2010
Report No. 460
                                        Page 4
               Findings and Recommendations


Finding 1: OA Is Unable to Identify the Universe
of the SEC’s Interagency Agreements
                  OA cannot accurately identify the Commission’s
                  universe of interagency acquisitions and the list of
                  IAAs that was provided was incomplete and had
                  numerous errors.

Review of OA’s Interagency Acquisition List. As part of this audit, we
requested OA provide us with the universe of IAAs that were open, initiated or for
which the period of performance ended during fiscal years (FY) 2007 - 2009. We
learned that OA does not have a centralized system to track or identify the
universe of its IAAs. Although OA provided us with a list of 133 IAAs, 18 totaling
approximately $234 million in estimated costs, the complete universe of IAAs
could not be confirmed, and we found that the list provided to us was incomplete
and contained erroneous information. Thus, OA officials could not identify the
total number or dollar amount of the Commission’s IAAs with certainty.

In our review of the 133 IAAs OA identified on its list (See Table 3, in Appendix
VII for the complete list), we found the following information missing from the list:

     •   Period of performance was missing for 63 IAAs;
     •   Obligated amounts was missing for 50 IAAs;
     •   IAA status was missing for 49 IAAs;
     •   Statutory authority was missing for 48 IAAs.

Furthermore, we found 4 IAAs were inaccurately identified on OA’s list of IAAs as
“expired” when, in fact, according to the IAAs themselves, the period of
performance had not ended. Due to the number of errors found on OA’s list of
IAAs, we determined that the IAA list was unreliable. We therefore concluded
that the list does not provide OA with reliable information that can be used to
make decisions on IAAs.

OA’s Interagency Acquisition Tracking Method. We also found that OA lacks
a centralized method that accurately tracks and identifies all of the SEC’s IAAs.

18
  The list provided by OA actually contained 176 items. However, after adjusting for duplicates,
amendments and items that were not IAAs, the list yielded a total of 133 IAAs.

Management and Oversight of IAAs at the SEC                                                March 26, 2010
Report No. 460
                                                 Page 5
This deficiency could negatively impact both the agency’s ability to report
financial information accurately and its ability to oversee and manage
interagency acquisitions. OA branch chief’s/contracting officers primarily track
the IAAs under their purview differently, on separate spreadsheets. In addition,
OA does not have SEC-specific written policies or procedures to identify the
information that the branch chief’s/contracting officers should track or what data
should be included in the spreadsheets.

OA informed the OIG that once PRISM, its new automated procurement system,
is fully functional, OA will devise a method to better track IAA data in PRISM.
PRISM’s implementation consists of three phases and OA is currently in phase
two of the implementation. At the time fieldwork for this audit was completed, all
IAAs were not loaded into PRISM.

The absence of written, standardized processes and procedures to track IAAs
makes it difficult for OA to monitor, revise, and update IAA data on a
Commission-wide basis, or to ensure that the SEC is complying with all
applicable federal requirements, such as the Federal Acquisition Regulation
(FAR).

IAA Number String and Budget Object Class. We also found that IAAs are
not always clearly identified by the IAA number string. Many IAA numbers
include the letter “H,” such as SECHQ1-09-H-XXXX as an indication that an IAA
is involved, rather than a contract. However, we identified 12 IAAs on the list
provided by OA that had an “F” in the IAA number string, rather than an “H.” The
letter “F” is generally utilized to refer to a delivery order, not an IAA. We also
identified additional IAAs that did not have either the letter “H” or the letter “F” in
the number string.

Having an identifiable letter in the IAA number enables OA staff, contracting
officers, contract specialists, Contracting Officer's Technical Representatives
(COTR), program officers and others, to track the Commission’s IAAs. OA
indicated that it will standardize the naming conventions for IAAs in PRISM and
will include an “H” in all future IAA numbers, so they can be more readily tracked
and managed.

Prior Audit Work Conducted. Regis & Associates, PC (Regis), under contract
with the OIG, performed an audit of OA’s procurement and contract management
processes and functions and issued the report Audit of the Office of Acquisitions’
Procurement and Contract Management Functions, Report No. 471, September
2009. The scope of Regis’ review covered FYs 2006 to 2008. Regis also found
that OA could not identify the universe of its contracts and the corresponding
contract values. The report consisted of 10 recommendations, including requiring


Management and Oversight of IAAs at the SEC                              March 26, 2010
Report No. 460
                                        Page 6
OA to identify the universe of open contracts and the corresponding value of the
contracts.

       Recommendation 1:

       The Office of Acquisitions (OA), in coordination with the Office of Financial
       Management (OFM), should identify its universe of open interagency
       acquisitions and the corresponding amounts obligated and expended on
       each interagency acquisition. Once this is accomplished, OA should
       reconcile its universe of active and open interagency acquisitions with the
       financial information maintained by OFM regarding active and open
       interagency acquisitions and the corresponding amounts obligated and
       expended.

       Management Comments. OA and OFM: Concur. OFM did not provide
       written or verbal comments to the formal draft report. See Appendix VI for
       OA’s full comments to the report.

       OIG Analysis. We are pleased that OA and OFM have concurred with
       this recommendation.

       Recommendation 2:

       The Office of Acquisitions should maintain its interagency acquisition data
       in the appropriate centralized automated system to ensure appropriate
       access to and accuracy of data and to provide for report generation
       capabilities.

       Management Comments. Concur. See Appendix VI for management’s
       full comments.

       OIG Analysis. We are pleased that OA concurred with this
       recommendation.

       Recommendation 3:

       The Office of Acquisitions should establish appropriate internal controls to
       provide reasonable assurance that, in the future, interagency acquisition
       agreement data is accurate, timely, complete and reliable.

       Management Comments. Concur. See Appendix VI for management’s
       full comments.



Management and Oversight of IAAs at the SEC                           March 26, 2010
Report No. 460
                                        Page 7
         OIG Analysis. We are pleased that OA concurred with this
         recommendation.


Finding 2: OA Lacks Written Internal Policies
and Procedures for Interagency Acquisitions
                 OA does not have written internal policies and
                 procedures for handling interagency acquisitions at
                 the SEC. The lack of written internal policies and
                 procedures is an internal control weakness that limits
                 the ability of OA staff to ensure the proper use of
                 IAAs.

Lack of SEC-Specific Written Internal Policies and Procedures for IAAs.
Our audit found that OA had not developed sufficient internal SEC-specific
written policies and procedures to guide its administration of IAAs. For example,
OA has no SEC-specific policies and procedures regarding: (a) providing a
specific, definite and clear description of products or services; (b) ensuring that
statements of work for assisted interagency acquisitions meet the applicable
requirements; (c) ensuring the reasonableness of interagency acquisition costs;
(d) including the appropriate information in interagency acquisition files;
(e) recording and maintaining complete information on interagency acquisitions;
and (f) closing expired interagency acquisitions. Further, OA has no written
policies and procedures to implement applicable provisions of the FAR, Treasury
Financial Manual (TFM) Bulletin No. 2007-03, or the Office of Management and
Budget’s Office of Federal Procurement Policy (OFPP) guidance regarding
interagency acquisitions. Also, we found that OA’s IAAs do not undergo any
legal review, 19 and OA has not formulated policies regarding SEC oversight of
IAAs, pursuant to OA’s Memorandum of Understanding with the Office of
General Counsel.

The acquisition-related policies and procedures issued by OA do not relate to
IAAs per se, and include the following:

     •   SECR 10-2, SEC Contracting Authorities and Appointments,
         September 23, 2009 - Establishes the uniform policies and
         procedures for acquisition of products and services for the SEC.

19
   Pursuant to the Memorandum of Understanding, dated September 13, 2005, between the Office of the
General Counsel and the Office of Administrative Services, “Statement of Policy on Legal Review of
Procurement Actions,” OGC review and involvement will normally not be required in routine situations
involving interagency agreements, regardless of contract value.

Management and Oversight of IAAs at the SEC                                            March 26, 2010
Report No. 460
                                               Page 8
    •   SECR 10-14, Contract Administration, April 28, 2005 - Establishes
        the Commission’s contract closeout program and explains how it
        functions, and implements 48 C.F.R. § 4.8, Government Contract
        Files, 48 C.F.R. § 17.5, Interagency Acquisitions under the
        Economy Act, and 48 C.F.R. § 42.708, Quick-closeout Procedure.
        The regulation applies to contracting officers, contract specialists,
        COTRs and program managers/officials who are involved in the
        acquisition of supplies and services. The regulation states that the
        closeout procedures are applicable to all contracts, and Economy
        Act acquisitions. However, OA officials have informed the OIG that
        they do not follow these procedures for IAAs because in OA’s view,
        these procedures do not apply to IAAs.

Written policies and procedures represent an organization’s documented internal
control activities. According to GAO’s “Standards for Internal Control in the
Federal Government,” in implementing the standards for internal control,
“management is responsible for developing the detailed policies, procedures, and
practices to fit their agency’s operations and to ensure that they are built into and
an integral part of operations . . . .” 20

Lack of SEC Policies Implementing the Office of Management and Budget’s
Office of Federal Procurement Policy 2008 Guidance. The Office of
Management and Budget’s (OMB) OFPP Guidance on “Interagency
Acquisitions,” issued on June 6, 2008, became effective in part on October 1,
2008, and in part on or after November 3, 2008. 21 The guidance identifies the
responsibilities for both the requesting agency and servicing agency, and
provides generalized descriptions of their roles. For example, the OFPP
determined that “[t]o ensure sound management and use of interagency
acquisitions and maximize their impact on agency effectiveness, requesting and
servicing agencies must establish clear lines of responsibility for each step in the
acquisition lifecycle, from planning to contract closeout . . . .“22 The OFPP
guidance also requires requesting agencies to “[p]rovide documentation to the
Servicing Agency, which may be in the form of a SOW, statement of objectives
(SOO), or performance work statement, that includes a specific, definite, and
clear description of a bona fide need . . . .” 23 Servicing agencies are required to
“[e]nsure requirements are clearly defined and suitable performance standards

20
   U.S. Government Accountability Office, “Standards for Internal Control in the Federal Government,”
GAO/AIMD-00-21.3.1, November 1999, p.7.
21
   See Memorandum for Chief Acquisition Officers, Senior Procurement Executives, from Paul A. Denett,
Administrator, Office of Federal Procurement Policy, and Subject: Improving the Management and Use of
Interagency Acquisitions, June 6, 2008.
22
    Executive Office of the President, Office of Management and Budget, Office of Federal Procurement
Policy, “Interagency Acquisitions,” Appendix 1, Checklist of Roles and Responsibilities in Assisted
Acquisitions at p. 14.
23
   Id. at p. 17 (emphasis in original).

Management and Oversight of IAAs at the SEC                                            March 26, 2010
Report No. 460
                                               Page 9
are established against which results may be effectively measured.” 24
Additionally, the OFPP guidance provides requirements for developing
interagency acquisition documents. We were informed during the course of the
audit that copies of the OFPP guidance were distributed to OA staff. However,
we were not provided with any written documentation concerning how OA
intended to implement the OPFF guidance. We determined that OA should tailor
the generalized descriptions identified in this guidance to fit its specific
circumstances.

Failure to Incorporate Treasury Financial Manual Bulletin. The U.S.
Department TFM Bulletin No. 2007-03, “Intragovernmental Business Rules,”
became effective on October 1, 2006. The TFM bulletin provides guidance for
recording and reconciling intragovernmental transactions, including interagency
acquisitions whereby agencies obtain goods and services from each other by
means of an intragovernmental agreement or order. The TFM bulletin includes
requirements for the documentation of intragovernmental agreements or orders.
Specifically, in Section VI, “Procurement Requirements,” of the TFM bulletin
identifies specific information to be included in intragovernmental acquisition
order documents, such as, the agreement number, the effective date and
duration of the agreement, the amount and method of payment, etc. 25

The TFM bulletin’s policies and procedures represent the internal controls that
OA and OFM should use to ensure that interagency acquisitions are
appropriately accounted for and recorded. These government-wide requirements
should all be incorporated into OA’s written polices and procedures for
interagency acquisitions.

Improper Reliance Upon FAR Subpart 17.5 Guidance for Interagency
Acquisitions. OA relied on FAR Subpart 17.5, “Interagency Acquisitions Under
the Economy Act,” (FAR 17.5) as its guidance for interagency acquisitions. FAR
17.5 implements the Economy Act and “. . . . prescribes policies and procedures
applicable to interagency acquisitions under the Economy Act . . . .” 26 According
to FAR 17.5, agencies must provide documentation that the interagency
acquisition is in the best interest of the government and that the goods or
services could not be obtained as cheaply or conveniently from a private
source. 27 FAR 17.5 also provides for ordering and payment procedures related
to interagency acquisitions. 28


24
   Id. at p. 20.
25
   Department of the Treasury, Treasury Financial Manual Bulletin No. 2007-03, effective October 1, 2006,
Attachment 1, “Intragovernmental Business Rules” at pgs. 6-7.
26
   48 C.F.R. § 17.500(a).
27
   48 C.F.R. § 17.503(a).
28
   48 C.F.R. §§ 17.504, 17.505.

Management and Oversight of IAAs at the SEC                                               March 26, 2010
Report No. 460
                                                Page 10
FAR Subpart 17.5 does not, however, apply to non-Economy Act acquisitions, or
provide guidance for agency-specific situations. For example, FAR 17.5 would
not apply to interagency acquisitions using Government-Wide Acquisition
Contracts or Federal Supply Schedule contracts. Acquisition of training services
from the Office of Personnel Management under the Government Employees
Training Act also would not be covered by FAR 17.5.

The distinction between Economy Act and non-Economy Act authority can be
important because for Economy Act acquisitions, the IAA funds must be
deobligated after the period of fund availability expires if the servicing agency has
not supplied the requested goods or services or entered into a valid contract to
do so. This requirement applies to Economy Act IAAs with funding that has
specific periods of availability (annual or multi-year appropriations). This
requirement does not apply to non-Economy Act IAAs. Also, FAR 17.5, which
applies to Economy Act acquisitions, prohibits servicing agencies from collecting
fees or charges in excess of actual or estimated costs.29 This FAR requirement
does not apply to non-Economy Act IAAs.

Our audit found that the Economy Act was cited as the only authority for the
agreements in all instances for which an authority was cited. Though an
authority was cited in 85 of 133 instances, not all of these acquisitions were
authorized under the Economy Act because some acquisitions, e.g., GSA
acquisitions, were authorized by specific statutes other than the Economy Act. 30

Failure to Perform Risk Assessments. OA also has not performed risk
assessments of its interagency acquisition function. Risk assessments would
help OA to manage its IAAs better by identifying actual and potential
opportunities and challenges related to the IAAs. OA could then develop policies
and procedures to take advantage of the opportunities identified through the risk
assessments and to address its challenges in managing IAAs.

Without written procedures for interagency acquisitions, OA lacks adequate
guidance needed for administering IAAs. The audit report further identified a
number of instances where such guidance would have been useful. For
example, OA did not have written guidance for:

        •    Ensuring that SOWs for assisted IAAs meet the applicable
             requirements (See Finding 6);

29
  48 C.F.R. § 17.505(d).
30
   According to FAR Subpart 17.500(b), “[t]he Economy Act applies when more specific statutory authority
does not exist. Examples of interagency acquisitions to which the Economy Act does not apply include—
(1) Acquisitions from required or optional sources of supplies prescribed in [FAR] Part 8, which have
separate statutory authority (e.g., Federal Supply Schedule contracts); and (2) Acquisitions using
Governmentwide acquisition contracts.” 48 C.F.R. § 17.500(b).

Management and Oversight of IAAs at the SEC                                              March 26, 2010
Report No. 460
                                               Page 11
         •   Ensuring the reasonableness of IAA costs (See Finding 5);
         •   Including the appropriate information in IAA documents (See Finding
             4);
         •   Recording and maintaining complete and accurate information on IAAs
             (See Finding 1); and
         •   Closing out expired IAAs (See Finding 3).

Other Government Agencies’ Written Policies and Procedures for IAAs. We
identified several government agencies that have written policies and procedures
regarding the oversight of both Economy Act and non-Economy Act IAAs. We
also found that OMB’s OFPP IAA guidance requires that requesting agencies
obtain legal review, as needed. 31 Specifically, the Department of the Interior
(DOI) has an internal IAA handbook that identifies the general policies and
procedures for preparing, reviewing, approving, monitoring, and closing IAAs. 32
The Department of Homeland Security has written policies and procedures for
IAAs under the Economy Act. 33 The Department of Energy developed written
policies and procedures covering interagency acquisitions pursuant to the
Economy Act, Government-Wide Acquisition Contracts, the General Services
Administration Federal Supply Schedule, and Franchise Fund organizations. 34

OA should explore reviewing the existing guidance that other agencies have
developed for managing the oversight of IAAs, and benchmark best practices
when developing its own written policies and procedures.

         Recommendation 4:

         The Office of Acquisitions should develop internal written policies and
         procedures to guide it in administering interagency acquisitions. These
         policies and procedures should be based on appropriate risk
         assessments, address both Economy Act and Non-Economy Act
         acquisitions, and incorporate Federal Acquisition Regulation Subpart 17.5,
         the Office of Federal Procurement Policy’s guidance on interagency
         acquisitions, and other requirements regarding interagency acquisitions as
         appropriate.

         Management Comments. Concur. See Appendix VI for management’s
         full comments.


31
   Executive Office of the President, Office of Management and Budget, Office of Federal Procurement
Policy, “Interagency Acquisitions” at p. 16.
32
   Department of the Interior Inter/Intra-Agency Acquisition Handbook, 4/3/2008 version,
www.doi.gov/pfm/handbooks/iaa.pdf.
33
   Department of Homeland Security, Directive No. 125-02, “Interagency Agreements,” August 15, 2008
34
   Department of Energy Acquisition Letter, No. 2005-05 Rev, “Interagency Contracting,” April 26, 2005.

Management and Oversight of IAAs at the SEC                                               March 26, 2010
Report No. 460
                                                Page 12
       OIG Analysis. We are pleased that OA concurred with this
       recommendation.

       Recommendation 5:

       In developing written policies and procedures for assisted interagency
       acquisitions the Office of Acquisitions should incorporate the requirements
       of the Economy Act, the Office of Federal Procurement Policy guidance on
       interagency acquisitions, and other controlling authorities, and coordinate
       with the Office of Financial Management to assure its minimum
       requirements are also included. The Office of Acquisitions should ensure
       that its written policies and procedures for interagency acquisitions include
       guidance on:

           •   Ensuring that statements of work for interagency acquisitions
               related to assisted services meet the applicable requirements;
           •   Ensuring the reasonableness of interagency acquisition costs;
           •   Including the appropriate documents in interagency acquisition
               files;
           •   Recording and maintaining complete information on interagency
               acquisitions; and
           •   Closing expired interagency acquisitions.

       Management Comments. Concur. See Appendix VI for management’s
       full comments.

       OIG Analysis. We are pleased that OA concurred with this
       recommendation.

       Recommendation 6:

       The Office of Acquisitions should benchmark other federal agencies’
       written policies and procedures for interagency acquisitions when
       developing its interagency acquisition agreement written policies and
       procedures.

       Management Comments. Concur. See Appendix VI for management’s
       full comments.

       OIG Analysis. We are pleased that OA concurred with this
       recommendation.




Management and Oversight of IAAs at the SEC                           March 26, 2010
Report No. 460
                                       Page 13
Finding 3: OA Maintained Funds on IAAs for
Which the Period of Performance Ended
                   We found 23 of 133 IAAs, totaling approximately $6.9
                   million, for which the period of performance had
                   ended, yet the IAAs were not closed out and the
                   funds that remained on the IAA were not deobligated.

Expired IAAs Funds Were Not Deobligated. The SEC uses no-year money to
fund its IAAs. No-year funding can be carried into future fiscal years, and the
funds can be made available for the agency’s use. Thus, no-year money is
available for use until it is spent.

Our audit initially found 30 of 133 IAAs identified on the list OA provided to the
OIG had expired and the period of performance had ended. We searched the
Commission's financial accounting system, Momentum, 35 to confirm whether
funding remained on the IAAs. We then provided a copy of our list of expired
IAAs to OA, who researched and revised our list. OA identified a duplicate IAA
on our list and 6 IAAs that were still active. After OA’s review and concurrence,
we determined that there were 23 of 133 expired IAAs having approximately $6.9
million in funds that had not been deobligated. Although the IAAs’ period of
performance had expired, the IAAs were not closed out and the funds were not
deobligated. We found that approximately $5.3 million of the $6.9 million in
obligated funds was attributed to a single IAA with GSA, for which the period of
performance ended on September 30, 2008. To date, this IAA has not been
closed. This $6.9 million represents funds identified by the OIG that are
considered cost savings and/or funds put to better use.36 A detailed list of the
expired IAAs with outstanding funding and the obligated amounts can be found in
Table 5, located in Appendix IX.

OA officials acknowledged that the 23 IAAs had expired, had not been closed
out, and the funding was not deobligated. They stated that this occurred
because of OA’s heavy workload, resource limitations, and the low priority placed
on conducting closeouts. As a result, $6.9 million in unused funds has remained
on the expired IAAs that have not been deobligated. Since the obligated
amounts came from no-year money, these funds could be used to support the
SEC’s current programs, operations and mission. (See Appendix IX and
Appendix X) OA officials informed the OIG that it intends to closeout these IAAs
and deobligate any remaining funds, beginning in the first quarter of FY 2010.


35
     The Momentum system tracks the agency's budget, obligations, expenditures and balances.
36
     See Table 6 at Appendix X.

Management and Oversight of IAAs at the SEC                                             March 26, 2010
Report No. 460
                                                Page 14
SECR Closeout Requirements. SECR 10-14, Contract Administration, provides
guidance on contract closeouts and dictates closure dates for specific contract
types, such as simplified acquisitions and firm-fixed price contracts, other than
simplified acquisitions. The regulation provides that “[f]iles for all other contracts
should be closed within 20 months of the month in which the contracting
officer/specialist receives evidence of physical completion.” 37 The regulation also
states that it implements FAR 17.5 for interagency acquisitions that are subject to
the Economy Act. However, we found that OA does not have any written
guidance that specifically addresses IAA closeout procedures. 38

Moreover, OA officials informed the OIG that it does not follow the SECR 10-14
closeout procedures for IAAs because OA determined the guidance does not
apply to IAAs. Instead, OA officials indicated they rely on FAR 17.5 for all IAA
guidance. However, FAR 17.5 provides no guidance for IAA closeout
timeframes, processes, or procedures, and it does not address non-Economy Act
acquisitions. We determined that in the absence of specific closeout procedures
for IAAs, OA should have ensured that IAAs were properly closed, particularly in
light of SECR 10-14’s representation that it applies to all Economy Act
acquisitions.

According to OA, the contracting officer is responsible for deobligating funds that
remain on IAAs, as well as for adding funds that may be needed. With assisted
acquisitions, the contracting officer is located at the servicing agency, not at the
SEC. Therefore, the servicing agency is responsible for closing the IAA with the
vendor. In fact, based on the terms of the expired IAA with GSA, we found that
GSA should have closed the IAA but failed to do so. Our audit also found that
OA contracting officers, contract specialists, and COTRs did not effectively
monitor IAAs to ensure they were closed in a timely manner and unused funds
were properly deobligated. Upon GSA’s completion of closing out the IAA, any
funds left over should have been returned to the SEC. Effective monitoring on
the part of the SEC would have resulted in $5.3 million being deobligated and
returned to the Commission in a timely manner.

We further found that OA staff had contact with the servicing agencies during the
IAAs, but OA does not have or follow standard written procedures for
coordinating closeouts with the servicing agencies. OA should develop and
follow written procedures for COTR oversight of payments and funding and
coordinating IAA closeouts with servicing agencies. This will ensure that the
SEC’s unused funds are properly returned and that the funds are put to better
use by the Commission.

37
  SECR 10-14, “Contract Administration,” April 28, 2005, Section 2a.
38
  While the Office of Acquisitions indicated that there are FAR provisions for close-out of contract files,
SEC-specific written guidance for close-out of IAAs is recommended.

Management and Oversight of IAAs at the SEC                                                   March 26, 2010
Report No. 460
                                                  Page 15
       Recommendation 7:

       The Office of Acquisitions should develop written policies and procedures
       regarding interagency acquisitions that include timeframes and
       procedures for closing out Economy Act and non-Economy Act
       interagency acquisitions and deobligating funds for both assisted and
       direct acquisitions. The closeout procedures should also identify the
       Commission’s process for coordinating with servicing agencies.

       Management Comments. Concur. See Appendix VI for management’s
       full comments.

       OIG Analysis. We are pleased that OA concurred with this
       recommendation.

       Recommendation 8:

       The Office of Acquisitions should promptly identify fully all interagency
       acquisition agreements that have expired and have not been closed. The
       Office of Acquisitions should further deobligate any funds that remain on
       the expired agreements.

       Management Comments. Concur. See Appendix VI for management’s
       full comments.

       OIG Analysis. We are pleased that OA concurred with this
       recommendation.

       Recommendation 9:

       The Office of Acquisitions should take action to close the interagency
       acquisitions we identified for which the performance expired and
       deobligate the $6.9 million in unused funds that remain on the interagency
       acquisitions, in accordance with the appropriate close-out procedures.

       Management Comments. Concur. See Appendix VI for management’s
       full comments.

       OIG Analysis. We are pleased that OA concurred with this
       recommendation.




Management and Oversight of IAAs at the SEC                         March 26, 2010
Report No. 460
                                       Page 16
Finding 4: IAA Documentation Lacked
Information Required by the FAR and
Treasury Guidance
           The SEC’s IAA forms and the determinations and findings
           (D&F) lacked information required by the FAR. We further
           found that the “Securities and Exchange Commission (SEC)
           Interagency Agreement/Amendment” form is outdated, and
           that the SEC’s IAA award documents and forms did not
           include all of the information necessary to document the
           basis for the interagency acquisition and the obligation of
           funds.

FAR Compliance: Economy Act Determinations and
Findings Documents

FAR 17.503. According to FAR section 17.503(a), “[e]ach Economy Act order
shall be supported by a D&F. The D&F shall state that—

           (1) Use of an interagency acquisition is in the best interest of the
           Government; and

           (2) The supplies or services cannot be obtained as conveniently
           or economically by contracting directly with a private source.” 39

FAR 17.503(b) provides that “[i]f the Economy Act order requires contract action
by the servicing agency, the D&F must also include a statement that at least one
of the following circumstances applies:

           (1) The acquisition will appropriately be made under an existing
           contract of the servicing agency, entered into before placement
           of the order, to meet the requirements of the servicing agency
           for the same or similar supplies or services;

           (2) The servicing agency has capabilities or expertise to enter
           into a contract for such supplies or services which is not
           available within the requesting agency; or




39
     48 C.F.R. § 17.503(a).

Management and Oversight of IAAs at the SEC                                March 26, 2010
Report No. 460
                                          Page 17
         (3) The servicing agency is specifically authorized by law or
         regulation to purchase such supplies or services on behalf of
         other agencies.” 40

Review of Determinations and Findings. We reviewed D&Fs from a
judgmental sample of 13 of 133 IAAs to evaluate compliance with the FAR. Of
the 13 IAAs that were selected for review, 4 were covered by the Economy Act,
and 9 were non-Economy Act acquisitions. Also, 5 of 13 IAAs were assisted
acquisitions, while 8 were direct acquisitions. Our review found that 3 of the 13
D&F documents, 2 which were for Economy Act IAAs, lacked the required
statement that “[t]he supplies or services cannot be obtained as conveniently or
economically by contracting directly with a private source.” We also found that
1of 13 D&F documents was not signed by a contracting officer, as is required by
FAR 17.503(c).

The D&F requirements provide documented justification for entering into
interagency acquisitions. The D&F documents that were incorrectly completed,
therefore, did not provide adequate justification for the related interagency
acquisitions. 41

The SEC’s Interagency Agreement/Amendment Form. The Securities and
Exchange Commission (SEC) Interagency Agreement/Amendment, (SECIAA/A)
form was last revised in 1999. We judgmentally selected 21 IAAs from our
population of 133 IAAs. We found that 10 of the 21 selected IAAs were prepared
on the SEC’s award forms, while the remaining 11 IAAs were prepared on the
other agencies’ forms.

In reviewing our sample, we found that while the SECIAA/A forms include
information required by FAR 17.503, the forms lack specific fields needed to
identify delivery requirements, acquisition authority, and the resolution of
disagreements, as required by TFM Bulletin No. 2007-03. The IAA award forms
simply have a catchall field “Additional instructions/Information” that may or may
not contain this information. While information such as delivery requirements
was contained in this field on several of the forms, we found five SECIAA/A forms
that appeared to lack information entirely on either the acquisition authority or the
resolution of disagreements.

Adding these specific fields to the IAA form would ensure that the agreements
included the information required to adequately document the acquisition.


40
  48 C.F.R. § 17.503(b).
41
  In addition, several D&F documents actually included information that was not required by FAR 17.503,
such as the estimated cost of the IAA, sufficient funding availability and the legal authority for the IAA.

Management and Oversight of IAAs at the SEC                                                 March 26, 2010
Report No. 460
                                                 Page 18
Treasury Financial Manual Guidance. The Department of the Treasury and
OMB have both issued guidance covering IAA documentation. The Department
of the Treasury issued TFM Bulletin No. 2007-03, “Intra governmental Business
Rules,” which became effective on October 1, 2006. OMB’s guidance on
interagency acquisitions became effective in part in October 2008 and in part in
November 2008. 42 The TFM bulletin includes documentation requirements for
intra-governmental agreements or orders as shown in Table 1, below.

       Table 1: Intragovernmental Business Rules, Procurement
       Requirements for Intragovernmental Agreement/Orders
                              Requirements

        •   The agreement number and the funding source.
        •   The Treasury Account Symbol for the ordering and servicing
            agencies.
        •   The Business Event Type Code for the ordering and servicing
            agencies.
        •   The effective date and duration of the agreement, including the
            expiration of the funding source.
        •   The amount of the IAA and the method of payment.
        •   The Business Partner Network number for the ordering and
            servicing agencies.
        •   The method and frequency of performance reporting.
        •   Provisions for advance payment and method for liquidating.
            advances, if applicable.
        •   The parties’ rights to modify, cancel or terminate the agreement.
        •   An alternative dispute resolution clause.
        •   A clause specifying that if the ordering agency cancels the order,
            the seller is authorized to collect costs incurred prior to cancellation
            plus any termination costs.
        •   Accounting/finance office, contracting officer/contracting officer’s
            technical representative point of contact information, such as name,
            location and telephone number.
       Source: Treasury Financial Manual Bulletin No. 2007-03.

The information described in Table 1 above, is intended to facilitate the
reconciliation of accounts between ordering and servicing agencies. 43 However,
we found that the SECIAA/A form did not contain the following TFM bulletin
requirements: Business Event Type Code, Business Partner Network Number, or

42
   OFPP requirements for “best interest determinations” went into effect on October 1, 2008.
Implementation of the elements and model agreement contained in Appendices 2 and 3 to the OFPP
guidance applied to IAAs entered into on or after November 3, 2008. Memorandum for Chief Acquisition
Officers, Senior Procurement Executives, from Paul A. Dennet, Administrator, Office of Management and
Budget, subject: Improving the Management and Use of Interagency Acquisitions, June 6, 2008.
43
   Department of the Treasury, Treasury Financial Manual Bulletin No. 2007-03, effective October 1, 2006.

Management and Oversight of IAAs at the SEC                                              March 26, 2010
Report No. 460
                                               Page 19
the method of performance reporting. The absence of this information could
make it more difficult to record and reconcile the SEC’s IAAs according to the
TFM bulletin requirements.

Office of Management and Budget Guidance. OMB’s OFPP issued guidance
on “Interagency Acquisitions” in June 2008. The guidance requires specified
documentation of IAAs for assisted acquisitions that were entered into on, or
after November 3, 2008. 44 According to the guidance, IAA documentation serves
the following two purposes:

         (1) To establish the general terms and conditions governing
         the relationship between the requesting and servicing
         agencies; and

         (2) To provide the information needed to establish a bona
         fide need and authorize the transfer and obligation of
         funds. 45

The OFPP also provides guidance in developing interagency agreement
documentation. The guidance indicates that IAAs for assisted acquisitions
should have two main parts, Part A and Part B. Part A includes the general
terms and conditions that govern the responsibilities and roles of the requesting
and servicing agencies. 46 For example, Part A specifically requires identifying
the legal authority for the interagency acquisition, and the period of
performance. 47 Part B requires “specific information on the requesting agency’s
requirements sufficient to demonstrate a bona fide need.” 48 The information
required by Part B specifically includes projected milestones, fees, and the
expiration date of the appropriation from which the funds are provided for the
interagency acquisition. 49 OFPP requires agencies to review their IAAs for
assisted acquisitions carefully in conjunction with the guidance “to ensure they
are clear and complete.” 50 Further, OFPP encourages agencies to use the
model IAA document in its guidance and, at a minimum, ensure that requires that
their IAAs contain the elements enumerated in Appendix 2 to the guidance. 51


44
   Executive Office of the President, Office of Management and Budget, Office of Federal Procurement
Policy “Interagency Acquisitions,” June 2008, Appendices 2 and 3 at pgs. 32-46.
45
    Id. at p. 8. The term, “Bona fide need” refers to the availability of appropriated funds only for the
payment of expenses properly incurred during the period of availability of the appropriation. See 31 U.S.C.
§ 502(a).
46
   Executive Office of the President, Office of Management and Budget, Office of Federal Procurement
Policy, “Interagency Acquisitions.” June 2008 at p. 8.
47
   Id., Appendix 2 at p. 32
48
   Id. at p. 8 (emphasis omitted).
49
   Id., Appendix 2 at p. 35.
50
   Id. Appendix 2 at p. 9.
51
   Id.

Management and Oversight of IAAs at the SEC                                                March 26, 2010
Report No. 460
                                                Page 20
Our audit found that the SEC’s IAA documentation was not consistent with the
format recommended by OFPP. The information contained in OFPP’s
enumerated elements was also not readily found in the IAA documentation that
we reviewed. In several instances, we had to review several documents (e.g.,
the IAA form, the terms and conditions, and the statement of work) to locate the
required information.

OA’s documentation of its IAAs requires updating to ensure that the D&F
documents provide adequate justification for interagency acquisitions, and that
required information for interagency acquisitions may be readily located. Also,
OA should ensure that its IAA forms include information required to document the
acquisition adequately in accordance with the OFPP guidance, and to facilitate
recording and reconciling these agreements according to the TFM bulletin
requirements.

       Recommendation 10:

       The Office of Acquisitions should update its interagency acquisition
       Determinations and Findings and interagency acquisition forms to include
       the information required by the Federal Acquisition Regulation, Treasury
       Financial Manual Bulletin No. 2007-03 (in consultation with the Office of
       Financial Management), and the Office of Federal Procurement Policy
       guidance on interagency acquisitions.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OA concurs with this
       recommendation.

Finding 5: OA Lacked Adequate Information
to Review IAA Cost Estimates
              OA did not know the basis for the cost estimates for
              the SEC’s IAAs with the U.S. Department of Health
              and Human Services’ Program Support Center/Mid
              Atlantic Cooperative Administrative Support Unit and
              the DOI’s National Business Center. Further, OA did
              not have adequate information to review these cost
              estimates for reasonableness.

We judgmentally selected and carefully analyzed cost estimates for 2 of 133
IAAs. Specifically, we reviewed IAAs for the Commission-wide administrative

Management and Oversight of IAAs at the SEC                          March 26, 2010
Report No. 460
                                       Page 21
support services provided by the U.S. Department of Health and Human
Services’ Program Support Center (PSC)/Mid Atlantic Cooperative Administrative
Support Unit (CASU) and the SEC’s employee payroll services provided by the
DOI’s National Business Center (NBC). Both IAAs were not subject to the
Economy Act, as they were authorized by statutes other than the Economy Act.

The PSC funds its activities and services through a revolving fund 52 that is
authorized under the Government Management Reform Act of 1994. CASU is
one of the PSC’s business units operated through the PSC’s Service and Supply
Fund in accordance with 42 U.S.C. § 231. The DOI’s NBC provides payroll
services to agencies through the DOI working capital fund established pursuant
to 43 U.S.C. § 1467.

Administrative Support Services IAA. The SEC entered into an IAA in August
2008 for administrative support services through CASU, which consists of a
network of vendors that provide goods and services to federal agencies. We
reviewed a judgmental sample of 11 of 22 task orders that were issued on the
CASU IAA. Our review of the CASU IAA included task orders for secretarial,
paralegal, receptionist, and administrative assistant support positions at the SEC.
According to OA’s listing of the CASU IAAs, the total cost of all the task orders
under the CASU IAA was estimated to be $5 million.

CASU documents its cost estimates for each task order on an “Estimate For
Administrative Support Services” (Quote) form. The Quote form includes
categories for labor, period of performance, number of hours, unit cost (the fully
loaded hourly rate applied to a particular job title), and a total dollar amount. The
quote is prepared as a result of a competitive proposal process managed by
CASU from any of a group of small business contractors. The form also includes
an employee hourly rate, which represents the wage rate to be paid to the
employee and the minimum fringe benefit rate, which are different from the unit
cost. 53 The total estimated cost is calculated by multiplying the unit cost by the
number of hours work needed.

Our audit found that unit cost was significantly greater than the estimated hourly
employee rate, plus the fringe rate. The OA contracting officer was unable to
explain this disparity. After contacting the CASU representative, the contract

52
   A revolving fund is an account established to finance a continuing cycle of operations through amounts
received, such as a working capital fund. See U.S. Government Accountability Office, Principles of Federal
Appropriations Law, Third Edition, Volume III, GAO-08-978SP, September 2008 at pgs. 12-85 through 12-89
for additional information on the concept and definition of revolving funds.
53
   These rates are pursuant to the McNamara-O'Hara Services Contract Act of 1965, as amended, 41
U.S.C. 351 et seq., which requires contractors and subcontractors performing services on covered federal
contracts in excess of $2,500 to pay service employees in various classes no less than the monetary wage
rates and fringe benefits found prevailing in the locality, or the rates contained in a predecessor contractor's
collective bargaining agreement.

Management and Oversight of IAAs at the SEC                                                   March 26, 2010
Report No. 460
                                                  Page 22
specialist assigned to the IAA explained that the unit cost was higher than the
employee hourly rate, plus the fringe rate, because a fee was included in the
amount the SEC pays to CASU. This fee represents the difference between the
unit cost and the employee’s hourly rate, plus the fringe rate and actually
consists of two parts: a fee that the SEC pays CASU to provide contract
administrative services; and the cost of services, overhead, and general and
administrative expenses, as well as profit that CASU pays to the vendor. We
found, however that the Quote form did not reflect this additional fee. OA staff
did not have information to support the additional costs. It was only after OIG
inquired about the estimates that OA staff requested detailed support for the
figures.

We calculated both components of the fee the SEC paid to CASU for the task
orders identified in our sample based on the explanation provided by the OA
contract specialist. We found that the SEC was paying a fee of $281,000 to
CASU for the task orders in our sample, which represented the difference
between what the employees were paid in wages and benefits and what CASU
received. Hence, this amount was in addition to the employee hourly rate, plus
the fringe costs, which amounted to $771,000. The $281,000 represented
approximately 27 percent of the $1,052,000 total cost that was paid to CASU.
When compared to the fee rates for other SEC IAAs that on average were 5
percent, 54 we found that 27 percent paid to CASU was significantly higher. 55

We further compared CASU’s rates to other vendors’ fee rates and judgmentally
selected 15 of 269 small business contractors listed on the General Services
Administration (GSA) schedules that provide administrative support and financial
audit services. We found that 9 of the 15 small business contractors in our
review listed lower rates than CASU in at least one labor category. Therefore,
we have questions about the process that OA utilizes in choosing to enter into an
IAA with CASU. OA should have undertaken a comparison of CASU’s costs to
those of other vendors that provide similar services before entering into the
agreement with CASU to ensure the government receives the best value.

Cost Estimates for Payroll Services. In November 2006, OHR entered into an
IAA with the DOI’s National Business Center for services related to processing
payroll and personnel actions. The agreement was for FY 2007 and had a period
of performance of one year. In March 2008, the SEC entered into its second IAA


54
   We calculated the 5 percent average fee based upon our review of the SEC’s IAAs with the Department of
Justice (paralegal services), the Department of Transportation (transit subsidy) and the Office of Personnel
Management (training management and assistance).
55
   While OA and CASU stated that of the 27 percent that the SEC pays to CASU, only 5 percent represents
the contract administration fee, our audit found that on its face, the 27 percent is high and OA lacked
adequate information to make a determination as to whether these costs were reasonable.

Management and Oversight of IAAs at the SEC                                               March 26, 2010
Report No. 460
                                                Page 23
with DOI for FY 2008. The IAAs cited the Economy Act 56 and 43 U.S.C. §§ 1467
and 1468 as the authorities for the agreements. We found that OA ratified the
first six months of the FY 2008 IAA for approximately $420,000, because OHR
had not timely submitted an IAA. 57

The cost estimates for the IAAs with DOI were primarily based on the “HR
Application Services Personnel and Payroll Operations” section of the SOW.
These services included payroll operations, leave and earnings statements, and
services provided through “Employee Express,” an on-line personnel system that
is made available to SEC employees. When we asked OA staff about DOI’s cost
estimate for the IAA, they indicated that they did not know how DOI came up with
the number of W-2s that were used to calculate the cost estimate. Our audit
determined that DOI used the total number of SEC W-2s that it processed two
years earlier in calculating its cost estimate. For example, DOI used the number
of W-2s processed in calendar year 2005 to develop the fiscal year 2007
estimate. We found that OA does not require the customer to compare the W-2
estimates DOI uses in its cost calculations to the actual number of W-2s to
evaluate the reasonableness of DOI’s estimates and ensure that the cost
estimates are accurate.

According to the Federal Acquisitions Institute, OMB requires ordering agencies,
such as the SEC in this situation, to provide input to the servicing agency to
assist in the determination of whether proposed contract prices are fair and
reasonable. The reasonableness of access or service fees charged by the
servicing agency should be evaluated by the requesting agency as part of its
"best interest determination." 58 The OFPP guidance provides that in choosing an
appropriate servicing agency, the requesting agency should give consideration to
the “reasonableness of the servicing agency’s fees.” 59

Our audit found that in connection with the IAA for DOI payroll services, OA failed
to provide this input to ensure that the proposed contract prices were fair and
reasonable.




56
   As noted above, the Economy Act was cited as authority in error as this IAA was not subject to the
Economy Act.
57
   In September 2007, the OIG issued an inspection report addressing the issue of ratifications and
recommended steps to improve controls in that area. See “Contract Ratifications,” Report No. 430,
September 25, 2007. As of the date that the FY 2008 IAA was signed, OA had not implemented all OIG’s
report recommendations. Currently, all but two of the report’s recommendations have now been
implemented and are closed.
58
   The Federal Acquisitions Institute, “Interagency Acquisitions Roles and Responsibilities Reference Tool,
”www.fai.gov/IAA/rrrt/rrrt.asp, Item 9. “Ensure price reasonableness.”
59
   Executive Office of the President, Office of Management and Budget, Office of Federal Procurement
Policy, “Interagency Acquisitions,” June 2008 at pgs. 6-7.

Management and Oversight of IAAs at the SEC                                                March 26, 2010
Report No. 460
                                                 Page 24
Homeland Security Presidential Directive-12 IAA. During our review of the FY
2008 DOI estimate for payroll services, we noted that DOI reduced its estimated
costs by $50,000 for services that the SEC did not receive from DOI under a
separate IAA. In determining the source of the $50,000 credit, we learned that in
July 2005, the SEC entered into an Economy Act IAA with DOI and advanced
DOI $50,000 to provide needed support regarding the implementation of the
Homeland Security Presidential Directive 12 (HSPD-12) badge requirements.
The period of performance for the IAA was from July 2005 to July 2006. In
September 2006, the SEC cancelled its IAA with DOI for HSPD-12
implementation because DOI could not perform the services that were needed in
the required timeframe. At the time the IAA was cancelled, DOI had not provided
any services to the SEC under the IAA. However, the SEC did not require that
DOI return the $50,000 the SEC had advanced to DOI for the IAA. Instead, DOI
issued the SEC a $50,000 credit that was later applied as a reduction to the cost
estimate for the SEC’s FY 2008 IAA for payroll services.

Under the Economy Act, the funding advanced to DOI under the HSPD-12 IAA
should have been returned to the SEC. 60 Moreover, had OA reviewed the DOI
cost estimates for 2008 payroll services, it would have learned of the $50,000
credit and could have taken proper steps to retrieve the $50,000 that was
advanced to DOI on the HSPD-12 IAA.

        Recommendation 11:

        The Office of Acquisitions should develop and implement appropriate
        procedures to review interagency acquisition cost estimates to ensure
        they are reasonable and properly supported.

        Management Comments. Concur. See Appendix V for management’s
        full comments.

        OIG Analysis. We are pleased that OA concurs with this
        recommendation.

        Recommendation 12:

        The Office of Acquisitions should assess the Mid-Atlantic Cooperative
        Administrative Support Unit (CASU) interagency agreement to determine if
        the costs incurred are reasonable and the CASU interagency acquisition
        agreement is in the best interest of the Commission.
60
   See, e.g., In re Economy Act Payments After Obligated Account is Closed, B-260993, 1996 U.S. Comp.
Gen. LEXIS 318 (June 26, 1996); In re Bureau of Land Management – Disposition of Water Resources
Council Appropriations Advanced Pursuant to the Economy Act, B-250411, 72 Comp. Gen. 120 (March 1,
1993).

Management and Oversight of IAAs at the SEC                                           March 26, 2010
Report No. 460
                                              Page 25
       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OA concurs with this
       recommendation.

       Recommendation 13:

       The Office of Acquisitions should consider sources of administrative
       support services that charge lower amounts if it determines that the Mid-
       Atlantic Cooperative Administrative Support Unit interagency agreement
       does not provide the best value to the Commission.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OA concurs with this
       recommendation.

Finding 6: OHR’s Statement of Work for Its
Human Resources Management Assistance
IAA Did Not Conform to OPM’s TMA Program
Guidance
              OHR’s statement of work for its IAA for human
              resources management assistance with the Office of
              Personnel Management Training and Management
              Assistance (OPM/TMA) program did not specifically
              identify the required services or products. Also, OHR
              did not include information in the SOW that was
              specified in guidance issued in reference to
              OPM/TMA program.

OPM’s Training and Management Assistance Program. Between FYs 2006
and 2007, OHR transferred approximately $5.1 million into OPM/TMA program’s
revolving fund on an IAA for human resources management assistance services.
In August 2006, OHR made an initial transfer of $2 million to OPM/TMA under
this IAA. Thereafter, the IAA was amended three times, and approximately $3.1
million in additional funding was transferred to the OPM/TMA account, bringing
the total amount transferred under this IAA to $5 million.



Management and Oversight of IAAs at the SEC                           March 26, 2010
Report No. 460
                                       Page 26
The OPM/TMA program provides assistance to agencies in the areas of training
and human capital management. The program also provides assistance for
workforce planning and restructuring, process improvement, and performance
and compensation systems. The TMA program provides agencies with access to
its contracts with a number of private sector vendors with expertise in human
capital management.

Pursuant to the SEC’s IAA with OPM/TMA, the TMA program provides services
to OHR by awarding task orders against its contracts. OHR staff identified
OHR’s service requirements to OPM/TMA, which, in coordination with OHR,
competed and selected vendors that best met OHR’s requirements. The
OPM/TMA issues task orders for the required services and maintains funding
received from external agencies in a revolving fund, which is used to pay for work
done under the IAA. OPM/TMA charges a fee for its contracting services that is
based on the agency’s balance in the OPM/TMA revolving fund. The assessed
fee is initially determined at the time an interagency agreement is established.
The agency obligates an amount to include the fee, which is transferred and
placed in the OPM/TMA revolving fund under the agency’s project code.
OPM/TMA uses the revolving fund to pay contractors for their services on behalf
of the agency. The assessed fee is collected only after the customer has
approved a contractor invoice for the project task for payment

Agencies enter into IAAs with the OPM/TMA under the authority of the
Government Employees Training Act, the OPM revolving fund authority, 61 and
Executive Order 11348. The Economy Act does not apply to these types of
IAAs.

The OPM/TMA program guidance, posted on OPM’s website, 62 describes a six-
step process as shown in Table 2 below, for agencies to follow when entering
into an IAA with OPM/TMA.




61
 5 U.S.C. § 1304(e)(1).
62
 U.S. Office of Personnel Monument, Training and Management Assistance: The Process,
www.opm.gov/hrd/tma/theprocess.asp?1.

Management and Oversight of IAAs at the SEC                                       March 26, 2010
Report No. 460
                                            Page 27
     Table 2: OPM/TMA Program Interagency Agreement Guidance
     Steps
                    Interagency Agreement Steps

     1. Develop a Statement of Objectives (SOO) - The SOO provides a
        clear and concise description of the customer agency’s needs and
        expectations. It includes background information, the target audience
        for the goods and services, requirements, deliverables to be
        produced, specifications, and time frames.
     2. IAA - The IAA documents the terms and conditions of the relationship
        between the agency and the TMA program, obligates the agency’s
        funding and transfers it to TMA’s revolving fund.
     3. Task Order Competition – TMA selects a few pre-qualified contractors
        for the project described in the SOO. The contractors each present
        their capabilities and technical approaches to a panel composed of
        TMA and agency representatives. The panel evaluates the
        contractors, and TMA notifies the winning contractor.

     4. Project Kick-Off Meeting – TMA and agency representatives meet
        with the winning contractor to clarify project goals and expectations.
     5. Management Plan – The contractor, based on the discussions in the
        kick-off meeting, prepares a management plan including the tasks,
        activities, costs, and timelines to complete the project.
     6. Project Monitoring – The contractor begins work on the project. TMA
        issues work orders under the management plan, processes invoices,
        monitors spending, etc.
     Source: OPM TMA Website

Interagency Agreement for Human Resources Management Assistance. In
August 2006, OHR entered into an IAA for $2 million with OPM/TMA to obtain
human resources management assistance for its staff. The IAA consisted of a
SOW that OHR included with its funding request. The IAA’s period of
performance was from October 2006 to September 2007, and the IAA was an
assisted acquisition, pursuant to which OPM staff served as the contracting
officer for the IAA. Between September 2006 and September 2007, according to
OHR, approximately an additional $3.1 million was transferred to the OPM/TMA
account for the IAAs so the SEC could “lock in” a lower, more favorable fee rate.

Transfer of Funds to the TMA Account. In June 2006, OHR requested that $2
million be immediately transferred from its operating fund to the OPM/TMA
program account. 63 In that request, OHR staff indicated that TMA officials had
informed them that TMA’s fee schedule would change in October 2006 and the


63
  Decision Memorandum to Acting Executive Director from Assistant Director, Office of Human Resources,
Subject: Transfer of Funds, dated June 13, 2006.

Management and Oversight of IAAs at the SEC                                           March 26, 2010
Report No. 460
                                              Page 28
fee rates would vary based on each agency’s fund balance. 64 The request also
stated that the OPM/TMA accounts provided a useful and flexible “no-year”
contracting vehicle. 65 OHR officials determined that it would be beneficial for the
agency to “lock in” a 6 percent fee, by transferring a portion of OHR’s existing
operating funds to the OPM/TMA revolving fund account. 66 OHR officials further
determined that transferring the funds at that time would ensure that OHR could
have continued access to these funds by having them already available at
OPM/TMA for contractors’ services as needed. 67 In addition, OHR
recommended that its Leadership and Knowledge Management Branch continue
to monitor its budget and, in early September 2006 transferred additional funds to
the OPM/TMA account. 68 OHR transferred $2 million to TMA in August 2006, an
additional $660,000 in September 2006, and approximately $2.4 million in
September 2007. OHR indicated that it expected that maintaining a significant
balance with OPM/TMA would allow the agency to reduce its fee to 5 percent. 69

OHR’s SOW Omitted Pertinent Information Included in the TMA Statement
of Objectives Guidance. The OPM/TMA program provides written guidance on
the information that agencies should submit to transfer funds to OPM/TMA.
According to the guidance, the SOO should clearly and concisely describe the
agency’s needs and expectations. 70 Although the OPM/TMA guidance
specifically described the information that should typically be included in the
SOO, we found that OHR’s SOW 71 for the IAA with OPM/TMA did not include
much of the necessary information and did not even specify the services or
products requested. The OPM/TMA guidance consists of information that should
be included in the various SOO sections. Below we identify the information that
is required for the various SOO sections and then contrast it with the information
that was provided in OHR’s SOW.

Background Section

According to the OPM written guidance, the “Background” section of the SOO is
to include an overview of the project and a description of circumstances that may
affect the outcome of the project and the environment in which the services or



64
   Id.
65
   “No-year” funding is generally available until expended and it does not become unavailable for obligation
at the end of a fiscal year or a specific number of fiscal years.
66
   Decision Memorandum to Acting Executive Director from Assistant Director, Office of Human Resources,
Subject: Transfer of Funds, dated June 13, 2006.
67
   Id.
68
   Id.
69
   Id.
70
   U.S. Office of Personnel Monument, Training and Management Assistance: The Process, Step1:
Develop a Statement of Objectives, www.opm.gov/hrd/tma/theprocess.asp?1
71
   The SEC’s document was called a “Statement of Work” and not a “Statement of Objectives.”

Management and Oversight of IAAs at the SEC                                                March 26, 2010
Report No. 460
                                                 Page 29
products will be used. 72 In this instance, OHR never issued an SOO and the
“Background” section of OHR’s SOW did not include any of the above required
information. Instead, the background section briefly described the SEC’s
mission, jurisdiction, and organizational structure.

Audience Section

According to the OPM written guidance, the “Audience” section of the SOO
should describe the intended target audience of the services or products that are
being sought. 73 OHR’s SOW makes no mention of target audience for the
products or services.

Requirements Section

The “Requirements” section of the SOO is referenced in the OPM written
guidance as identifying the project objectives to be met and the link to the
agency’s overall strategic and/or performance goals and the work or tasks to be
performed. 74 The “Requirements” section of OHR’s SOW did not refer to any
specific projects. Instead, it included high-level descriptions of requirements for
functions described as “Training, Learning, and Knowledge Management,” and
“Strategic Human Resource Management Requirements.” Each function also
included high-level descriptions of analysis, design, development,
implementation and evaluation requirements. 75 There was no discussion of the
specific project objectives that were to be met, the links to agency strategic or
performance goals, or to the specific work or tasks to be performed. In fact,
OHR’s SOW specifically stated, “Individual project requirements will each be
defined in separate Statements of Objectives.” 76

Deliverables Section

According to the OPM written guidance, the “Deliverables” section is to consist of
a description of the project’s outcomes or products be produced and the format in
which they should be delivered. 77 OHR’s SOW did not contain a description of
the specific project outcomes or the products to be produced. Instead, the SOW

72
   U.S. Office of Personnel Monument, Training and Management Assistance: The Process, Step1:
Develop a Statement of Objectives, www.opm.gov/hrd/tma/theprocess.asp?1
73
   Id.
74
   Id.
75
   Statement of Work for an Inter-Agency Agreement between the SEC OHR and OPM TMA, “Analysis,
Design, Development, Implementation ,and Evaluation of Customized Training, Learning, Knowledge
Management, and Strategic Human Resource Management Interventions to Support and Improve Human
Capital and Enterprise Performance (“OHR SOW”) at pgs. 2-12.
76
   Id. at p. 2.
77
   U.S. Office of Personnel Management Training and Management Assistance: The Process, Step 1:
Develop a Statement of Objectives, www.opm.gov/hrd/tma/the_process.asp?1.

Management and Oversight of IAAs at the SEC                                      March 26, 2010
Report No. 460
                                           Page 30
stated that the selected contractor would propose specific deliverables for
assigned project requirements; draft and final versions of each deliverable would
be submitted; and all deliverables were to be developed using the latest SEC-
approved version of the “Microsoft Office Tool Suite,” unless otherwise
directed. 78

Specifications Section

According to the OPM written guidance, the “Specifications” section of the SOO
identifies standards that products must meet, such as computer platform,
software requirements and continuing education standards. 79 The
“Specifications” section of OHR’s SOW did not include the information that was
described in the TMA’s SOO “Specifications” section. OHR’s specification
section was general and vague, stated that systematic approaches to the training
program’s design and development, and best professional and industry practices
would be utilized for all the work conducted under the contract. It further
indicated that the SEC’s specifications would be in force during the conduct of
projected work, where applicable. 80

Time Frames

The OPM written guidance provided for inclusion in the SOO of critical project
dates, such as the Estimated Start Date, Critical Interim Dates, and Desired
Completion Date. 81 However, OHR’s SOW did not include any of these dates.
Instead, it simply contained a “Period of Performance” section, which indicated
that individual projects conducted under the agreement would be initiated the
within the timeframes established by SEC management and that separate,
detailed schedules and timelines would be developed for individual projects
initiated under the agreement. 82

Contact with OPM TMA Officials. In October and November 2009, the OIG
spoke with OPM/TMA program officials regarding the program, the written
guidance and the specifically the requirements for a SOO. OPM/TMA program
officials stated the written guidance is not binding and there is some flexibility
with respect to the information that is to be included in the SOO. Yet, these
officials acknowledged that OPM/TMA issued guidance for agencies to use so
that sufficient information is included in their SOOs.

78
   OHR SOW at p.12.
79
   U.S. Office of Personnel Management Training and Management Assistance: The Process, Step 1:
Develop a Statement of Objectives, www.opmg.gov/hrd/tma/the_process.asp?1.
80
   OHR SOW at p. 13.
81
   U.S. Office of Personnel Management Training and Management Assistance: The Process, Step 1:
Develop a Statement of Objectives, www.opmg.gov/hrd/tma/the_process.asp?1.
82
   OHR SOW at p. 12.

Management and Oversight of IAAs at the SEC                                          March 26, 2010
Report No. 460
                                             Page 31
While we understand that the written OPM guidance does not have the force and
effect of law, and the OPM/TMA program may not require strict adherence to the
its guidance, we determined that OHR’s SOW failed to include so much critical
information included in the written guidance that the matter should be addressed.

       Recommendation 14:

       The Office of Acquisitions should provide additional training to its
       contracting staff and customers regarding interagency acquisitions.
       This training should include developing and ensuring the adequacy
       of statements of work and statements of objectives according to
       applicable guidance and requirements.

       Management Comments. Nonconcur. See Appendix V for
       management’s full comments.

       OIG Analysis. We do not agree with OA’s response to this
       recommendation. OA develops acquisition related policies and
       procedures for the Commission and is in a position to assist its customers
       in ensuring their requirements as identified in statements of work and
       statements of objectives, etc., meet the applicable acquisition-related
       requirements. See Appendix VI for OIG’s full response to management’s
       comments.

       Recommendation 15:

       The Office of Human Resources, in consultation with the Office of
       Acquisitions, should ensure that future Memoranda of
       Understanding provide appropriate specificity with regard to the
       types of products and services required, in accordance with
       applicable requirements.

       Management Comments. Concur. See Appendix V for management’s
       full comments.

       OIG Analysis. We are pleased that OHR and OA concurs with this
       recommendation.




Management and Oversight of IAAs at the SEC                          March 26, 2010
Report No. 460
                                       Page 32
                                                                     Appendix I
                              Acronyms

CASU                         Cooperative Administrative Support Unit
COTR                         Contracting Officer’s Technical Representative
D&F                          Determination and Finding
DOI                          Department of Interior
FAR                          Federal Acquisition Regulation
FY                           Fiscal Year
GAO                          Government Accountability Office
GSA                          General Services Administration
IAA                          Interagency Acquisition Agreement
IPAC                         Intra-Governmental Payment and Collection system
NBC                          National Business Center
OA                           Office of Acquisitions
OAPM                         Office of Administrative and Personnel Management
OAS                          Office of Administrative Services
OFM                          Office of Financial Management
OFPP                         Office of Federal Procurement Policy
OHR                          Office of Human Resources
OIG                          Office of Inspector General
OMB                          Office of Management and Budget
OPM                          Office of Personnel Management
PSC                          Program Support Center
SEC or Commission            U.S. Securities and Exchange Commission
SOO                          Statement of Objectives
SOW                          Statement of Work
TFM                          Treasury Financial Manual
TMA                          Training and Management Assistance Program




Management and Oversight of IAAs at the SEC                        March 26, 2010
Report No. 460
                                       Page 33
                                                                     Appendix II
                Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. The scope of the audit included interagency acquisitions of goods and
services by the SEC from other federal agencies. We reviewed judgmental
samples from interagency acquisitions awarded between FY 2007 and 2009 and
interagency acquisitions that were open during that time period. We also
reviewed information from the Momentum financial system as it related to
interagency acquisitions. We conducted our fieldwork between April and August
2009.

We did not review interagency transactions involving reimbursable use of SEC
staff at other agencies or assistance provided by the SEC to other entities. We
also did not review data from the OA’s PRISM acquisition database system
because OA staff indicated that the system did not include information regarding
interagency acquisitions.

 Methodology. To meet the object to assess compliance with governing federal
and Commission regulations and polices, OIG obtained and reviewed laws,
regulations, policies and procedures regarding interagency acquisitions. We
further interviewed staff in OA, OFM and certain SEC program offices in order to
evaluate the SEC’s processes and procedures to approve, obtain, monitor, and
close IAAs.

Also, we contacted staff at the Department of Health and Human Services and
DOI to discuss the cost estimates they provided to the SEC. In addition, we
surveyed all the SEC offices and divisions to determine whether they awarded
their own IAAs independent of OA. None of the SEC offices and divisions
indicated that they awarded IAAs independent of OA.

To meet the objective to determine whether opportunities exist for the SEC to
save costs associated with IAAs, we judgmentally selected samples of IAAs to
review from a list of 133 IAAs OA provided to the OIG. We reviewed the
documentation in the selected IAA files and analyzed the information contained
therein. We compared the information in from the IAA list to the IAA file
Management and Oversight of IAAs at the SEC                         March 26, 2010
Report No. 460
                                       Page 34
documentation, IAA documentation that OA maintained on its shared drive, and
financial information regarding IAAs in the Momentum system.

Management Controls. We reviewed controls that were considered significant
within the context of the audit objectives. We interviewed management and staff
from OA and other organizations, identified and reviewed applicable policies and
procedures, obtained and reviewed IAAs, and tested the data for compliance with
selected policies and procedures. We identified areas for improvement in
management controls over IAAs.

Use of Computer-Processed Data. We used interagency acquisition data
maintained by OA on spreadsheets. Also, we used data from the Commission’s
financial system, Momentum. We did not perform extensive tests of system
general or application controls on the Momentum system because it was not an
audit objective or sub-objective. To the extent practical, however, we compared
the IAA data we received with the IAA source documents in the files and with
data from Momentum. We found discrepancies in the IAA data that we received
from OA, including missing and incorrect IAA data.

Judgmental Sampling. We selected judgmental samples of IAAs that were
awarded or open between FY 2007 and 2009 to review. Specifically, to evaluate
compliance with the FAR we reviewed D&Fs from a judgmental sample of 13 of
133 IAAs. Of the 13 IAAs selected for review, 4 were covered by the Economy
Act, and 9 were non-Economy Act acquisitions. Also, 5 of 13 IAAs were assisted
acquisitions, while 8 were direct acquisitions. Further, we judgmentally selected
21 IAAs from our population of 133 IAAs and found that 10 of the 21 selected
IAAs were prepared on the SEC’s award forms, while the remaining 11 IAAs
were prepared on the other agencies’ forms. We then judgmentally selected and
carefully analyzed 2 of the 133 IAA’s cost estimates. Our review also included a
judgmental sample of 15 of 269 small business contractors from the GSA
schedules that provides administrative support to agencies.

Our findings applied to the items reviewed and were not extrapolated to the
universe from which our samples were obtained.

High-Risk Areas. GAO identified interagency acquisitions as a high-risk area in
2005. 83 GAO indicated that its work and that of the agencies’ inspectors general
had identified instances where interagency acquisitions were improperly used. 84
The identified causes of these deficiencies included increasing demands on
acquisition staff, insufficient training and inadequate guidance. 85 GAO again

83
   U.S. Government Accountability Office, “High-Risk Series: An Update,” GAO-05-207, January 2005.
84
   Id. at p. 26.
85
   Id. at p. 27.

Management and Oversight of IAAs at the SEC                                           March 26, 2010
Report No. 460
                                              Page 35
identified interagency acquisitions as a high-risk area in 2009, though it noted
improvements have been made since 2005. 86

Prior Audit Coverage. Our office, GAO and other inspector general offices
issued reports regarding various aspects of interagency acquisitions as follows:

     •   “Interagency Agreements,” Report No. 228, issued by SEC/OIG, February
         1, 1996.
     •   “Interagency Agreements to Use Other Agencies’ Contracts Need
         Additional Oversight,” Report No. 2007-P-00011, issued by U.S.
         Environmental Protection Agency/OIG, March 27, 2007.
     •   “Interagency Contracting: Need For Improved Information and Policy
         Implementation at the Department of State,” Report No. GAO-08-578,
         issued by GAO, May 2008.
     •    “Disbursing Operations Directorate at Defense Finance and Accounting
         Service Indianapolis Operations,” Report No. D-2008-052, issued by
         Department of Defense/OIG, February 19, 2008.




86
   U.S. Government Accountability Office, “HIGH-RISK SERIES: An Update,” GAO-09-271, January 2009, at
p. 79.

Management and Oversight of IAAs at the SEC                                         March 26, 2010
Report No. 460
                                             Page 36
                                                                      Appendix III


                                  Criteria

The Economy Act, 31 U.S.C. §§ 1535, 1536. The Economy Act provides
general authorization for agencies to place orders for goods or services with
other agencies if: amounts are available; the order is in the U.S. Government’s
best interest; the agency filling the order can provide the goods and services or
obtain them by contract; and the requesting agency cannot obtain the goods or
services more cheaply or conveniently from a commercial enterprise. The
Economy Act does not apply if a more specific authorization for a particular
interagency acquisition exists.

The Recording Statute, 31 U.S.C §1501(a). This statute requires that the
obligation of federal funds shall be supported by documentation of a binding
agreement between the agency and another person (including another agency)
for specific goods to be delivered, real property to be purchased or leased, or
services to be provided.

Federal Acquisition Regulation Subpart 17.5, Interagency Acquisitions
Under the Economy Act (48 C.F.R. §§ 17.500-17.505). This Subpart contains
policies and procedures applicable to interagency acquisitions under the
Economy Act. Specifically, among other things, it requires: Determinations and
Findings documenting that the interagency acquisition meets the requirements in
the Economy Act, identifies the information required to be included in an
Economy Act order for supplies or services with another government agency,
and prohibits payments of fees or changes in excess of actual or estimated costs
on IAAs that requires the use of a contract by the servicing agency.

Government Accountability Office Principles of Federal Appropriations Law
(Red Book), Third Edition, Volume II, February 2006, and Volume III,
September 2008. These volumes serve as a detailed fiscal law guide covering
those areas of law in which the Comptroller General renders decisions, and
describes existing legal authorities to illustrate, the principles discussed, their
application, and exceptions thereto.

Treasury Financial Manual Bulletin No. 2007-03, “Intragovernmental
Business Rules,” Effective October 1, 2006. This bulletin provides guidance
to federal agencies for recording and reconciling intragovernmental exchange
transactions, including interagency acquisitions.


Management and Oversight of IAAs at the SEC                           March 26, 2010
Report No. 460
                                       Page 37
                                                             Appendix III (Cont.)

“Interagency Acquisitions,” Executive Office of the President, Office of
Management and Budget, Office of Federal Procurement Policy, June 2008.
This guidance is intended to help agencies achieve the greatest value possible
from interagency acquisitions, wherein a requesting agency uses the contracts or
contracting services of a servicing agency to obtain supplies and services. It
does not address all interagency business transactions, but only those
undertaken for the primary purposes of obtaining services or products from
contractors.

Office of Personnel Management Training and Management Assistance
(TMA) Program Process Guidance. This guidance provides federal agencies
with a six-step process for obtaining training and human capital solutions through
the TMA reimbursable program, including the development of a statement of
objectives.

SEC Regulation 10-2, SEC Contracting Authorities and Appointments, June
24, 2008. Establishes uniform policies and procedures for the acquisition of
products and services for the SEC.

SEC Regulation 10-14, Contract Administration, April 28, 2005. Establishes
the Commission’s contract closeout program and explains how it functions and
implements various FAR provisions. States that it applies to all contracts and
Economy Act acquisitions.




Management and Oversight of IAAs at the SEC                          March 26, 2010
Report No. 460
                                       Page 38
                                                                      Appendix IV

                     List of Recommendations

   Recommendation 1:

   The Office of Acquisitions (OA), in coordination with the Office of Financial
   Management (OFM), should identify its universe of open interagency
   acquisitions and the corresponding amounts obligated and expended on each
   interagency acquisition. Once this is accomplished, OA should reconcile its
   universe of active and open interagency acquisitions with the financial
   information maintained by OFM regarding active and open interagency
   acquisitions and the corresponding amounts obligated and expended.

   Recommendation 2:

   The Office of Acquisitions should maintain its interagency acquisition data in
   the appropriate centralized automated system to ensure appropriate access
   to and accuracy of data and to provide for report generation capabilities.

   Recommendation 3:

   The Office of Acquisitions should establish appropriate internal controls to
   provide reasonable assurance that, in the future, interagency acquisition
   agreement data is accurate, timely, complete and reliable.

   Recommendation 4:

   The Office of Acquisitions should develop internal written policies and
   procedures to guide it in administering interagency acquisitions. These
   policies and procedures should be based on appropriate risk assessments,
   address both Economy Act and Non-Economy Act acquisitions, and
   incorporate Federal Acquisition Regulation Subpart 17.5, the Office of Federal
   Procurement Policy’s guidance on interagency acquisitions, and other
   requirements regarding interagency acquisitions as appropriate.




Management and Oversight of IAAs at the SEC                          March 26, 2010
Report No. 460
                                       Page 39
   Recommendation 5:

   In developing written policies and procedures for assisted interagency
   acquisitions the Office of Acquisitions should incorporate the requirements of
   the Economy Act, the Office of Federal Procurement Policy guidance on
   interagency acquisitions, and other controlling authorities, and coordinate
   with the Office of Financial Management to assure its minimum requirements
   are also included. The Office of Acquisitions should ensure that its written
   policies and procedures for interagency acquisitions include guidance on:

       •   Ensuring that statements of work for interagency acquisitions related to
           assisted services meet the applicable requirements;
       •   Ensuring the reasonableness of interagency acquisition costs;
       •   Including the appropriate documents in interagency acquisition files;
       •   Recording and maintaining complete information on interagency
           acquisitions; and
       •   Closing expired interagency acquisitions.

   Recommendation 6:

   The Office of Acquisitions should benchmark other federal agencies’ written
   policies and procedures for interagency acquisitions when developing its
   interagency acquisition agreement written policies and procedures.


   Recommendation 7:

   The Office of Acquisitions should develop written policies and procedures
   regarding interagency acquisitions that include timeframes and procedures for
   closing out Economy Act and non-Economy Act interagency acquisitions and
   deobligating funds for both assisted and direct acquisitions. The closeout
   procedures should also identify the Commission’s process for coordinating
   with servicing agencies.

   Recommendation 8:

   The Office of Acquisitions should promptly identify fully all interagency
   acquisition agreements that have expired and have not been closed. The
   Office of Acquisitions should further deobligate any funds that remain on the
   expired agreements.




Management and Oversight of IAAs at the SEC                          March 26, 2010
Report No. 460
                                       Page 40
   Recommendation 9:

   The Office of Acquisitions should take action to close the interagency
   acquisitions we identified for which the performance expired and deobligate
   the $6.9 million in unused funds that remain on the interagency acquisitions,
   in accordance with the appropriate close-out procedures.

   Recommendation 10:

   The Office of Acquisitions should update its interagency acquisition
   Determinations and Findings and interagency acquisition forms to include the
   information required by the Federal Acquisition Regulation, Treasury
   Financial Manual Bulletin No. 2007-03 (in consultation with the Office of
   Financial Management), and the Office of Federal Procurement Policy
   guidance on interagency acquisitions.

   Recommendation 11:

   The Office of Acquisitions should develop and implement appropriate
   procedures to review interagency acquisition cost estimates to ensure they
   are reasonable and properly supported.

   Recommendation 12:

   The Office of Acquisitions should assess the Mid-Atlantic Cooperative
   Administrative Support Unit (CASU) interagency agreement to determine if
   the costs incurred are reasonable and the CASU interagency acquisition
   agreement is in the best interest of the Commission.

   Recommendation 13:

   The Office of Acquisitions should consider sources of administrative support
   services that charge lower amounts if it determines that the Mid-Atlantic
   Cooperative Administrative Support Unit interagency agreement does not
   provide the best value to the Commission.

   Recommendation 14:

   The Office of Acquisitions should provide additional training to its contracting
   staff and customers regarding interagency acquisitions. This training should
   include developing and ensuring the adequacy of statements of work and
   statements of objectives according to applicable guidance and requirements.



Management and Oversight of IAAs at the SEC                           March 26, 2010
Report No. 460
                                       Page 41
   Recommendation 15:

   The Office of Human Resources, in consultation with the Office of
   Acquisitions, should ensure that future Memoranda of Understanding provide
   appropriate specificity with regard to the types of products and services
   required, in accordance with applicable requirements.




Management and Oversight of IAAs at the SEC                      March 26, 2010
Report No. 460
                                       Page 42
                                                                                              Appendix V

                            Management Comments


                                        MEMORA       DUM
                                          March 12,2010

        TO:            H. David Kotz
                       Inspector General
                       Office of Inspector General (OIG)

        FROM:           haron Sheehan     ~ ft, ,J.
                       Associate Director
                       Office of Administrative Services (OAS)

          UBJECT:      OIG Draft Audit of Management and Oversight of Interagency
                       Acquisition Agreements at the SEC, Report No. 460


        Thank you for the opportunity to comment. OAS has begun taking appropriate steps to
        address these recommendations. You will see that OAS non-concurs with
        Recommendation 14, and concurs with all other recommendations.

         Recommendation 1:

        OAS concurs. OA is changing its operating procedures and developing a holistic
        record-keeping system. OA recently deployed its new automatic procurement system
        (PRI M), thus giving OA an automated system to facilitate a consolidated record of
        active, pending, completed, modified, or cancelled contracts. PRISM is being deployed in
        two phases, with the second phase creating a link between PRISM and OFM's
        Momentum® financial ystem. This will allow both offices to track interagency
        agreements (IAAs), and generate a consolidated list ofIAAs.

         Recommendation 2:

         OAS COnCur. Interagency acquisitions are now created in PRISM, which will soon
         interface with Momentum . The interface, which contains key A- I 23 controls, will
         aHow for accurate record keeping.

         Recommendation 3:

         OAS concurs. OA will develop appropriate guidance on IAAs for staff.

         Recommendation 4:

         OAS concurs. As discussed in our response to Recommendation 3, OA will develop
         guidance on IAAs for staff.




Management and Oversight of IAAs at the SEC                                                   March 26, 2010
Report No. 460
                                               Page 43
        Recommendation 5:

       QAS concurs.

       Recommendation 6:

       OAS concurs.

        Finding3:

       Although the servicing agency's contracting officer will close out the IAA. we will
       improve our administration and work eollaboratively with the servicing agency to assure
       IAA timely closeout.

        Recommendation 7:

       OAS concurs. OAS again requests that this recommendation be included as part of
       Recommendation 4 with respect to issuing policy. The policy will reflect SEC suppon
       for c1ose-oul functions of the servicing agency'S contnlCting officer.

        Re<:ommendation 8:

       OAS concurs. QA began consolidating lists of all open contracts and interagency
       acquisitions in January 2010. OA will rely on the data generated by PRISM to track
       expiration dates.

        Recommendatioo 9:

       OAS concurs. Once a complete list is validated, OA will begin scheduling expired
       interagency acquisitions for reconciliation and will work with the servicing agency to
       assure timely closeout.

        Recommendation 10:

       QAS concurs. As discussed in the comment to Recommendation 3, OA will develop
       appropriate guidance on IAAs for staff.

        Recommendation II:

       OAS concurs. As discussed in the comment to Recommendation 3, OA will dcvelop
       appropriatc guidance on IAAs for staff.

        R«om.mendation 12:

       OAS concurs. OA completed its analysis of tile Depanment of Health and Human
       Service's Cooperative Administnltive Suppon Units (CASU) requests Recommendations


                                                   2




Management and Oversight of IAAs at the SEC                                              March 26, 2010
Report No. 460
                                              Page 44
      12 and 13 be closed prior to final issuance of the audit. OA confinned with CASU that
      the administrative fee is two percent. OA previously contracted with two other sources
      for similar support without success. Their rates were high and talent was lacking. OA
      will procure services in accordance with the FAR to obtain best value.

      Reconimendllltion 13:

      OAS concurs. As discussed in the comment to Recommendation 12. OA contacted
      Depanmcnt of Heallh and Hwnan Servicc's CASU. which confinned thc set
      administrative fee is two percent for all its Federal customers.

      Recommendation 14:

      OAS non-concurs with the responsibility for conducting Statement of Work training.
      Developing adequate requirement statements. such as SOWs. SOOs. PWS·s. etc., is the
      responsibility of the requiring activities. Training sources for documenting requirements
      are readily available in the commercial market and online at "Acquisition Central"
      www.acquisition.gov/sevenstepslhome.html.

      Recommendation IS:

      GAS concurs.




                                                  3




Management and Oversight of IAAs at the SEC                                            March 26, 2010
Report No. 460
                                              Page 45
                                                                     Appendix VI


     OIG Response to Management’s Comments

We are pleased that OAS fully concurred with 14 of 15 recommendations
pertaining to its office and OFM and OHR each concurred with the
recommendation that related to its respective offices as well. We believe these
recommendations will improve the Commission’s ability to manage interagency
acquisitions, comply with mandated statues, regulations and guidance as they
pertain to their management and oversight, and increase opportunities for cost
savings.

The OIG’s response to OAS’s non-concurrence to recommendation 14 is as
follows. We believe that recommendation 14 which states that OA “should
provide additional training to its contracting staff and customers regarding
interagency acquisitions,” including developing and ensuring the adequacy of
statements of work, may have been misinterpreted. In its management
comments, OA states that: “Developing adequate requirement statements, such
as statement of work, statement of objectives, performance work statements,
etc., requirements documents is the responsibility of the requiring activities.
Training sources for documenting requirements are readily available in the
commercial market and online at ‘Acquisition Central’. . . .”

We agree that the customer has responsibility for developing its own
requirements and are not recommending that OA prepare requirements
documents for customers. We also acknowledge that OA customers may obtain
training from commercial vendors in developing requirements documents.
However, since OA develops acquisition-related policies and procedures for the
Commission, it is in a position to assist its customers in ensuring the requirement
documents they prepare meet the applicable acquisition-related requirements.
We found evidence in our audit that these requirements are not being met. OA is
the only office within the Commission that has the expertise to ensure that
customers obtain the knowledge necessary to meet the pertinent requirements.
Thus, we believe that it would be useful for these customers and the Commission
as a whole for OA to conduct this training.

In addition, we note that since OA signs the IAA agreements that obligate
funding, it is in OA’s interest to ensure that the related requirements adequately
describe the goods and services that are requested in the statement of work and
statement of objectives. Thus, we remain convinced that OA should further
provide guidance to its customers to help them ensure the adequacy of
statements of work and statements of objectives according to applicable
guidance and requirements.


Management and Oversight of IAAs at the SEC                          March 26, 2010
Report No. 460
                                       Page 46
                                                                                Appendix VII


                Universe of IAAs Provided by OAS
Table 3: Universe of the Commission’s IAAs OAS Provided to OIG
Name of         Authority for   Total           Total           Period of          Status:
Servicing       Interagency     Cost            Obligated       Performance        Open or
Agency          Agreement                                                          Expired


1.   GSA        Economy Act     $156,825,306    $51,021,149     Sept 30, 2008      Expired
2.   OPM        Economy Act     $1,200,000      $1,931,327      Not Indicated      Expired
3.   Treasury   Not Indicated   Not Indicated   Not Indicated   Not Indicated      Expired
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
4.   DOJ                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
5.   DOJ                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
6.   FedLink                                                                       Indicated
7.   Treasury   Not Indicated   Not Indicated   $83,292         Not Indicated      Expired
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
8.   GSA                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
9.   DOT                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
10. DOJ                                                                            Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
11. FOH                                                                            Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
12. GSA                                                                            Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
13. FOH                                                                            Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
14. NARA                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
15. NARA                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
16. USPS                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
17. GAO                                                                            Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
18. GSA                                                                            Indicated
19. GSA         Economy Act     $12,732,185     $12,732,185     Oct 1, 2003 -      Open
                                                                Dec 14, 2009
20. GSA         Economy Act     $1,359,170      $4,202,170      Sept 30, 2007      Expired
21. FTC         Economy Act     $200,000        $45,000         Not Indicated      Open
22. GSA         Economy Act     $5,752,548      $5,752,548      Oct 1, 2004 -      Open
                                                                Sept 30, 2009
                                                                Oct 1, 2004 -
23. GSA         Economy Act     Not Indicated   $8,776,320      Sept 30, 2007      Expired
                                                                Oct 01, 2004 -     Expired
24. GSA         Economy Act     $206,285        $206,285        Sept 27, 2005

 Management and Oversight of IAAs at the SEC                                     March 26, 2010
 Report No. 460
                                           Page 47
Name of         Authority for   Total           Total           Period of         Status:
Servicing       Interagency     Cost            Obligated       Performance       Open or
Agency          Agreement                                                         Expired


25. Treasury    Economy Act     Not Indicated   $38,827         Not Indicated     Open
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
26. DOJ                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
27. GSA                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
28. Pacer                                                                         Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
29. Treasury                                                                      Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
30. FOH                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
31. DOT                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
32. NARA                                                                          Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
33. NARA                                                                          Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
34. GSA                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
35. FOH                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
36. DOI                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
37. DOJ                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
38. DOI                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
39. Treasury                                                                      Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
40. GSA                                                                           Indicated
41. D.C.        Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
    Treasurer                                                                     Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
42. DOJ                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
43. PCIE/ECIE                                                                     Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
44. DOJ                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
45. DOJ                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
46. GSA                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
47. DOI                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
48. GAO                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
49. DOI                                                                           Indicated
                Not Indicated   Not Indicated   Not Indicated   Not Indicated     Not
50. GSA                                                                           Indicated



Management and Oversight of IAAs at the SEC                                     March 26, 2010
Report No. 460
                                          Page 48
Name of           Authority for   Total           Total           Period of          Status:
Servicing         Interagency     Cost            Obligated       Performance        Open or
Agency            Agreement                                                          Expired

                  Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
51. UNICOR                                                                           Indicated
                                                                  Sept 21, 2005-
52. UNICOR        Economy Act     $1,549,556      $1,549,480      Sept 30, 2008      Expired
                                                                  Oct 1, 2005 -
53. DOT           Economy Act     $2,036,638      $2,036,638      Sep 30, 2006       Expired
                                                                  Oct 01, 2006 -
54. NARA          Economy Act     $276,500        $276,500        Sept 30, 2007      Expired
                                                                  Oct 1, 2005 -
55. NARA          Economy Act     $10,000         $10,000         Sept 30, 2006      Expired
56. PACER         Economy Act     $229,981        $229,981        Oct 1, 2005 -      Expired
                                                                  Sept 30, 2008
                                                                  Oct 1, 2005 -
57. GSA           Economy Act     $27,750         $27,750         Sept 30, 2006      Expired
                  Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
58. RTD                                                                              Indicated
                                                                  Oct 1, 2005 -
59. LOC           Economy Act     $7,499          $7,499          Sept 30, 2006      Expired
                  Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
60. GSA                                                                              Indicated
                                                                  Oct 1, 2005 -
61. GSA           Economy Act     $32,248         $32,248         Sept 30, 2006      Expired
                  Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
62. GSA                                                                              Indicated
                                                                  Oct 1, 2006 -
63.   DOJ         Economy Act     $9,706,186      $9,706,186      Sept 30, 2007      Expired
64.   DOI - NBC   Economy Act     $842,534        $842,534        Not Indicated      Open
65.   Treasury    Economy Act     $260,000        $260,000        Sept 30, 2006      Expired
66.   GAO         Economy Act     $1,000,000      $1,000,000      Feb 28, 2007       Expired
                                                                  Oct 1, 2006 -
67. FOH           Economy Act     $3,164,619      $2,758,050      Sept 30, 2009      Expired
                                                                  Oct 1, 2005 -
68. DOI           Economy Act     $122,650        $122,650        Sept 30, 2006      Expired
69. DOJ           Economy Act     $150,000        $98,550         July 31, 2007      Expired
                                                                  Oct 1, 2006 -
70. OPM           Economy Act     $19,092         $19,092         Aug 29, 2007       Expired
                                                                  Oct 1, 2007 -
71. OPM           Economy Act     $28,750         $28,750         Sept 30, 2007      Expired
                                                                  Oct 1, 2006 -
72. OPM-TMA       Economy Act     $5,055,700      $5,055,700      Sept 30, 2009      Open
73. OPM           Economy Act     $200,000        $80,000         Not Indicated      Open
                                  Not Indicated   Not Indicated   Oct 1, 2006 -
74. GOVWORK
    S             Economy Act                                     Sept 30, 2008      Expired
                  Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
75. GSA                                                                              Indicated



Management and Oversight of IAAs at the SEC                                        March 26, 2010
Report No. 460
                                             Page 49
Name of         Authority for   Total           Total           Period of          Status:
Servicing       Interagency     Cost            Obligated       Performance        Open or
Agency          Agreement                                                          Expired


76. FED EXE                                                     Oct 1, 2006 -
    BOARD       Economy Act     $10,000         $10,000         Sept 28, 2007      Expired
77. GSA         Economy Act     $400,000        $400,000        Not Indicated      Open
                                                                Oct 1, 2006 -
78. LOC         Economy Act     $7,720          $7,720          Sept 28, 2007      Expired
79. DOT         Economy Act     $2,121,886      $2,121,886      Sept 30, 2007      Expired
                                                                Oct 1, 2005 -
80. NARA        Economy Act     $286,380        $688,931        Sept 28, 2007      Expired
81. NARA        Economy Act     Not Indicated   $24,000         Not Indicated      Open
                                                                Oct 1, 2006 -
82. DOI - NBC   Economy Act     $926,356        $926,356        Sept 28, 2007      Expired
                                                                Dec 1, 2006 -
83. Treasury    Economy Act     $55,000         $55,000         Nov 30, 2007       Expired
                                                                Jan 1, 2004 -
84. OPM         Economy Act     $906,528        $906,528        Dec 31, 2008       Expired
                                                                Oct 1, 2007 -
85. DCAA        Economy Act     $19,981         $19,981         Sept 30, 2008      Expired
                                                                Oct 1, 2006 -
86. DOI         Economy Act     $120,800        $120,800        Sept 28, 2007      Expired
87. USDA        Economy Act     $500            $500            Apr 30, 2007       Expired
                                                                Oct 1, 2006 -
88. LOC         Economy Act     $31,516         $31,516         Sept 28, 2007      Expired
                                                                May 25, 2007 -
89. GAO         Economy Act     $1,000,000      $1,000,000      May 24, 2008       Expired
                                                                Apr 1, 2006 -
90. MACASU      Economy Act     $191,368        $191,368        Sept 30, 2008      Expired
                                                                Oct 1, 2006 -
91. LOC         Economy Act     $27,853         $27,853         Sept 28, 2007      Expired
92. GSA         Economy Act     $6,530,124      $7,771,824      Not Indicated      Open
93. GSA         Economy Act     Not Indicated   $1,501,000      Not Indicated      Open
                                                                                   Not
94. OPM         Economy Act     Not Indicated   Not Indicated   Not Indicated      Indicated
95. GSA         Economy Act     $22,500         0               Not Indicated      Open
                                                                Oct 1, 2007 -
96. DOS         Economy Act     $45,000         $45,000         Sept 30, 2008      Expired
                                                                Oct 1, 2007 -
97. DOJ         Economy Act     $91,925         $91,925         Sept 30, 2008      Expired
                                                                Oct 1, 2007 -
98. OPM         Economy Act     $56,371         $56,371         Sept 30, 2008      Expired
                                                                Oct 1, 2007 -
99. OPM         Economy Act     $33,800         $33,800         Sept 30, 2008      Expired
                                                                Oct 1, 2007 -
100. OPM        Economy Act     $5,437          $5,437          Sept 30, 2008      Expired




Management and Oversight of IAAs at the SEC                                      March 26, 2010
Report No. 460
                                           Page 50
Name of         Authority for   Total           Total           Period of          Status:
Servicing       Interagency     Cost            Obligated       Performance        Open or
Agency          Agreement                                                          Expired


                                                                Oct 1, 2006 -
101. OPM        Economy Act     $5,000          $5,000          Sept 30, 2007      Expired
                Not Indicated   Not Indicated   Not Indicated   Not Indicated      Not
102. DOT                                                                           Indicated
103. OPM        Economy Act     $845,500        $945,500        Not Indicated      Open
                                Not Indicated   Not Indicated   Not Indicated      Not
104. GSA        Economy Act                                                        Indicated
                                                                Oct 1, 2007 –
105. GSA        Economy Act     $11,940         $11,940         Sept 30, 2008      Expired
                                                                Oct 1, 2007 –
106. DOT        Economy Act     $1,731,372      $1,731,372      Sept 30, 2008      Expired
                                                                Oct 1, 2007 –
107. GSA        Economy Act     $55,000         $55,000         Sept 30, 2008      Expired
                                                                Oct 1, 2007 –
108. DOI        Economy Act     $184,611        $184,611        Sept 30, 2008      Expired
                                                                Oct 1, 2007 -      Not
109. DOI        Economy Act     $855,394        $855,394        Mar 31, 2008       Indicated
                                                                June 30, 2008
                                                                - Sept 30,
110. GPO        Economy Act     $58,000         $58,000         2009               Open
111. MACASU     Economy Act     $5,000,000      $78,104         Jul 31, 2013       Open
                                                                Aug 19, 2008 -
112. MACASU     Economy Act     $659,850        $437,224        Sept 30, 2009      Open
                                                                Aug 28, 2008 -
113. OPM        Economy Act     $37,391         $37,391         Sept 30, 2009      Open
                                                                Oct 1, 2007 -
114. LOC        Economy Act     $37,028         $37,028         Sept 30, 2008      Expired
                                                                Mar 1, 2008 -
115. Treasury   Economy Act     $3,300          $3,300          Sept 30, 2008      Expired
                                                                June 30, 2008
                                                                - Sept 30,
116. GSA        Economy Act     $3,056,513      $3,056,513      2009               Open
                                                                Apr 25, 2008 -
117. GAO        Economy Act     $1,768,696      $1,768,696      Apr 24, 2009       Expired
                                                                May 28, 2007 -
118. DOJ        Economy Act     $10,000         $10,000         May 30, 2008       Expired
                                                                Oct 01, 2007 -
119. DOE        Economy Act     $45,000         $45,000         Sept 30, 2008      Expired
                                                                July 1, 2008 -
120. GPO        Economy Act     $35,000         $35,000         June 30, 2010      Open
                                                                July 1, 2008 -
121. DOJ        Economy Act     $108,952        $108,952        June 30, 2009      Open
122. DOS        Economy Act     $250,000        $50,000         Not Indicated      Open
                                                                                   Not
123. OPM        Not Indicated   Not Indicated   Not Indicated   Not Indicated      Indicated-
124. DOJ        Economy Act     $250,000        $50,000         Not Indicated      Open

Management and Oversight of IAAs at the SEC                                      March 26, 2010
Report No. 460
                                           Page 51
 Name of          Authority for   Total           Total          Period of          Status:
 Servicing        Interagency     Cost            Obligated      Performance        Open or
 Agency           Agreement                                                         Expired


                                                                 Sept 1, 2008 -
 125. OCC         Economy Act     $53,282         $53,282        Sept 30, 2008      Expired
                                                                 Oct 1, 2008 -
 126. DOI         Economy Act     $1,149,446      $0             Sept 30, 2009      Open
                                                                 Nov 25, 2008 -
 127. GSA         Economy Act     $28,600         $28,600        Nov 24, 2009       Open
 128. DOT         Economy Act     $1,236,402      $1,236,402     Sept 30, 2009      Open
                                                                 Oct 1, 2008 -
 129. LOC         Economy Act     $763            $763           Sept 30, 2009      Open
                                                                 Oct 1, 2008 -
 130. DOE         Economy Act     $45,000         $45,000        Sept 30, 2009      Open
                                                                 Oct 1, 2009 -
 131. OPM         Economy Act     $367,893        $367,893       Sept 30, 2014      Open
                                                                 Jan 1, 2009 -
 132. Treasury    Economy Act     $12,500         $12,500        Sept 30, 2009      Open
                                                                 Apr 20, 2009 -
 133. GAO         Economy Act     $1,300          $1,300         Apr 19, 2010       Open
 Total                            $233,791,514    $136,279,546
 Total Entries    176
 Total
 Amendments       9
 Total
 Duplicates       20
 Total Non-IAAs   14
 Total
 Adjustments      43
 Total Number
 Adjusted of IAAs 133
Source: OIG Generated




 Management and Oversight of IAAs at the SEC                                      March 26, 2010
 Report No. 460
                                             Page 52
                                                                             Appendix VIII


              Duplicates, Amendments, & Errors

Table 4: Duplicates, Amendments, and Errors
Name of         Authority   Total Cost   Total           Period of       Status: Open,
Servicing       for IAA                  Obligated       Performance     Expired,
Agency                                                                   Closed
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
1. NARA         Act         Indicated
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
2. NARA         Act         Indicated
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
3. NARA         Act         Indicated
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
4. NARA         Act         Indicated
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
5. NARA         Act         Indicated
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
6. NARA         Act         Indicated
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
7. NARA         Act         Indicated
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
8. MACASU       Act         Indicated
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
9. GAO          Act         Indicated
10. FED-        Economy                  Not Indicated   Not Indicated
    SOURCE      Act         $260,000                                     Open
                Economy
11. GAO         Act         $1,000,000   $1,000,000      Not Indicated   Expired
                Economy     Not          Not Indicated   Not Indicated   Not Indicated
12. GAO         Act         Indicated
                Not         Not          Not Indicated   Not Indicated   Not Indicated
13. OPM         Indicated   Indicated
                Economy
14. DOS         Act         $45,000      $45,000         Not Indicated   Expired
                Economy
15. DOJ         Act         $91,925      $91,925         Not Indicated   Expired
                Economy
16. OPM         Act         $56,371      $56,371         Not Indicated   Expired
                Economy
17. OPM         Act         $33,800      $33,800         Not Indicated   Expired
                Economy
18. OPM         Act         $5,437       $5,437          Not Indicated   Expired
                Economy
19. MSPB        Act         $5,000       $5,000          Not Indicated   Expired

 Management and Oversight of IAAs at the SEC                                  March 26, 2010
 Report No. 460
                                         Page 53
 Name of           Authority   Total Cost   Total           Period of       Status: Open,
 Servicing         for IAA                  Obligated       Performance     Expired,
 Agency                                                                     Closed
                   Economy     Not          Not Indicated   Not Indicated   Not Indicated
 20. OPM           Act         Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 21. GPO           Indicated   Indicated
                   Economy                                  Oct 1, 2007 –
 22. LOC           Act         $37,029      $37,029         Sept 30, 2008   Expired
                   Economy     Not          Not Indicated   Not Indicated   Not Indicated
 23. GAO           Act         Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 24. GSA           Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 25. GAO           Indicated   Indicated
                   Economy     Not          Not Indicated   Not Indicated   Not Indicated
 26. GSA           Act         Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 27. FOH           Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 28. DOI           Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 29. MACASU        Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 30. GSA           Indicated   Indicated
                   Economy
 31. CFTC          Act         $238,586     $238,586        Dec 31, 2008    Expired
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 32. GSA           Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 33. GSA           Indicated   Indicated
 34. WDC -         Not         Not          Not Indicated   Not Indicated   Not Indicated
     DPW           Indicated   Indicated
                   Economy                                  Oct 1, 2005 -
 35. HUD           Act         $64,478      $64,478         Sept 30, 2006   Expired
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 36. CAST          Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 37. Treasury      Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 38. QUINDI        Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 39. SourceFire Indicated      Indicated
 40. Total         Not         Not          Not Indicated   Not Indicated   Not Indicated
     Recall Corp Indicated     Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 41. DOJ           Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 42. OPM           Indicated   Indicated
                   Not         Not          Not Indicated   Not Indicated   Not Indicated
 43. DOC           Indicated   Indicated
Source: OIG Generated




  Management and Oversight of IAAs at the SEC                                    March 26, 2010
  Report No. 460
                                            Page 54
                                                                       Appendix IX


            Expired IAAs With Outstanding Funding
Table 5: Expired IAAs That Have Outstanding Funds
                                                               Projected Date
                                                                     For
                                                                Deobligating
                             Outstanding   IAA   Closed and      Funds and
          Vendor              Amount     Expired Deobligated      Closeout
GSA OFFICE SUPP              $735,228.21      Yes      No      First Qtr FY 2010
GSA FEDSIM                   $5,277,003.42    Yes      No      First Qtr FY 2010
UNICOR                       $49,096.65       Yes      No      First Qtr FY 2010
GSAFTS1                      $9,376.12        Yes      No      First Qtr FY 2010
UNICOR                       $11,021.00       Yes      No      First Qtr FY 2010
GSA, FEDERAL
TECHNOLOGY SERV (FTS)        $39,748.20       Yes      No      First Qtr FY 2010
GSA Federal Technology
Services National Capital
Region                       $66,949.10       Yes      No      First Qtr FY 2010
                                                               Before 30 Sept
NARA                         $1,332.29        Yes      No      2009
GSA PERSONAL
PROPERTY CENTER              $21,725.00       Yes      No      First Qtr FY 2010
                                                               Before 30 Sept
FEDLINK                      $3,173.97        Yes      No      2009
GSA Federal Technology
Services National Capital
Region                       $11,580.00       Yes      No      First Qtr FY 2010
DOI Payroll Service          $2,880.00        Yes      No      First Qtr FY 2010
FEDLINK FISCAL                                                 Before 30 Sept
OPERATIONS                   $3,192.28        Yes      No      2009
DEPARTMENT OF
JUSTICE/ENRD                 $67,084.84       Yes      No      First Qtr FY 2010
OFFICE OF PERSONNEL
MANAGEMENT                   $3,099.20        Yes      No      First Qtr FY 2010
U.S. DEPARTMENT OF
TRANSPORTATION               $80,001.00       Yes      No      First Qtr FY 2010
U.S. GENERAL                                                   Before 30 Sept
ACCOUNTING OFFICE            $190,487.00      Yes      No      2009
THE OFFICE OF
COMPTROLLER OF THE
CURRENCY                     $33,668.99       Yes      No      First Qtr FY 2010
FEDSOURCE                    $187,832.93      Yes      No      First Qtr FY 2010
GSA VERIZON                  $58,303.29       Yes      No      First Qtr FY 2010
UNICOR                       $587.44          Yes      No      First Qtr FY 2010
OPM                          $40,000.00       Yes      No      First Qtr FY 2010


    Management and Oversight of IAAs at the SEC                        March 26, 2010
    Report No. 460
                                             Page 55
 DOT                          $52,459.76       Yes      No   First Qtr FY 2010
 Total                        $6,945,830.69
Source: OIG Generated




     Management and Oversight of IAAs at the SEC                     March 26, 2010
     Report No. 460
                                              Page 56
                                                                Appendix X

                        Schedule of Cost Savings

Table 6. Schedule of Cost Savings
 Number of Expired IAAs                          Amount to       Cost
                                                 De-obligate    Savings

 23 (See Appendix IX)                              $6,945,831   $6,945,831
 Total                                             $6,945,831   $6,945,831
Source: OIG Generated




Management and Oversight of IAAs at the SEC                     March 26, 2010
Report No. 460
                                       Page 57
                      Audit Request and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
